<html>
<title> - REAUTHORIZING THE HIGHER EDUCATION ACT: SIMPLIFYING THE FAFSA AND REDUCING THE BURDEN OF VERIFICATION</title>
<body><pre>[Senate Hearing 116-361]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-361
 
                        REAUTHORIZING THE HIGHER
                             EDUCATION ACT:
                       SIMPLIFYING THE FAFSA AND
                  REDUCING THE BURDEN OF VERIFICATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   ON

     EXAMINING REAUTHORIZING THE HIGHER EDUCATION ACT, FOCUSING ON 
 SIMPLIFYING THE FREE APPLICATION FOR FEDERAL STUDENT AID AND REDUCING 
                       THE BURDEN OF VERIFICATION

                               __________

                             MARCH 12, 2019

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
                                


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
 41-392 PDF              WASHINGTON : 2021 
         
        
        
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
MICHAEL B. ENZI, Wyoming            PATTY MURRAY, Washington
RICHARD BURR, North Carolina        BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia             ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky                 TAMMY BALDWIN, Wisconsin
SUSAN M. COLLINS, Maine             CHRISTOPHER S. MURPHY, Connecticut
BILL CASSIDY, M.D., Louisiana       ELIZABETH WARREN, Massachusetts
PAT ROBERTS, Kansas                 TIM KAINE, Virginia
LISA MURKOWSKI, Alaska              MARGARET WOOD HASSAN, New 
TIM SCOTT, South Carolina           Hampshire
MITT ROMNEY, Utah                   TINA SMITH, Minnesota
MIKE BRAUN, Indiana                 DOUG JONES, Alabama
                                    JACKY ROSEN, Nevada
                           
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director
              
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        TUESDAY, MARCH 12, 2019

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, Opening statement.........................     1
Baldwin, Hon. Tammy, Ranking Member, a U.S. Senator from the 
  State of Wisconsin, Opening statement..........................     3
Murray, Hon. Patty, Ranking Member, a U.S. Senator from the State 
  of Washington, Opening statement...............................     3

                               Witnesses

Scott, Kristina, Executive Director, Alabama Possible, 
  Birmingham, AL.................................................     9
    Prepared statement...........................................    10
    Summary statement............................................    14
Meotti, Michael, Executive Director, Washington Student 
  Achievement Council, Olympia, WA...............................    15
    Prepared statement...........................................    16
    Summary statement............................................    19
Wiederspan, Dr., Mark, Executive Research Officer, Iowa Student 
  Aid, Des Moines, IA............................................    20
    Prepared statement...........................................    22
    Summary statement............................................    27
Scott, Taylor, Dr., Michele, Chief Program Officer, College Now 
  Cleveland, Cleveland, OH.......................................    28
    Prepared statement...........................................    30
    Summary statement............................................    34

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Addendum to the Testimony of Kristina Scott..................    50
    Washington State College Bound Sign up Form Example..........    53

                         QUESTIONS AND ANSWERS

Response by Kristina Scott to questions of:
    Hon. Elizabeth Warren........................................    55
    Hon. Jacky Rosen.............................................    56
Response by Dr. Mark Wiederspan to questions of:
    Hon. Elizabeth Warren........................................    58
    Hon. Jacky Rosen.............................................    61
Response by Dr. Michele Scott Taylor to questions of:
    Hon. Elizabeth Warren........................................    62
    Hon. Jacky Rosen.............................................    65


                        REAUTHORIZING THE HIGHER

                             EDUCATION ACT:
                             
                       SIMPLIFYING THE FAFSA AND

                  REDUCING THE BURDEN OF VERIFICATION

                              ----------                              


                        Tuesday, March 12, 2019

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
Chairman of the Committee, presiding.
    Present: Senators Alexander [presiding], Collins, Cassidy, 
Scott, Braun, Baldwin, Casey, Murphy, Kaine, Hassan, Jones, and 
Rosen.

                 OPENING STATEMENT OF SENATOR ALEXANDER

    The Chairman. Good morning. The hearing for the Senate 
Committee on Health, Education, Labor, and Pensions will please 
come to order. Senator Murray has asked Senator Baldwin to be 
the Ranking Member today, and we welcome her and her interest 
in this topic. And after she and I make an opening statement, I 
will then introduce the witnesses and we will hear from each of 
them.
    There are not many things that United States Senators can 
do that will cause 20 million Americans to say thank you, but 
we are on the verge of doing one of those things. And that is 
by reducing the free application for Federal Student Aid, the 
FAFSA, from 108 questions to two dozen questions, and eliminate 
the need for families to give their financial information to 
the Government twice. This will help 400,000 families in 
Tennessee, 350,000 families in Senator Murray's Washington 
State, and we could go right up and down the line here among 
the Senators and identify the families and the students that 
our work could help.
    A volunteer mentor with Tennessee Promise, which is our 
state's program that provides two years of free community 
college, told me that the FAFSA, the form that 20 million 
students fill out--for those who might not be familiar with it, 
this is just what it looks like. Most people fill it out 
online, but it is 108 questions long. This volunteer mentor 
told me that the FAFSA that 20 million families fill out has a 
chilling effect, in her words, on students and parents. The 
former President of Southwest Tennessee Community College in 
Memphis told me he believes he loses 1,500 students each 
semester because the FAFSA is too complicated. East Tennessee 
State University said a third of their applicants, 
approximately 10,000 are selected each year for what is called 
verification, a complicated process that stops Pell Grant 
payments, while the students and their families scramble to 
submit their Federal tax information or prove they did not have 
to file taxes. Our former Governor Bill Haslam told me that 
Tennessee has the highest rate of filling out the FAFSA, but 
still the single biggest impediment to more students enrolling 
in Tennessee Promise. And one of the questions I hear from most 
students is can you please make it simpler to apply for Federal 
aid.
    Five years ago, in a hearing before this Committee, we 
heard that the vast majority of questions on the FAFSA are 
unnecessary. So, I asked the four witnesses at that time if 
each could write a letter to the Committee recommending how he 
or she would simplify the FAFSA. The witnesses looked at each 
other and they said we do not have to write you four letters 
because we can write you one letter because we agree. And so, 
they did, and Senator Bennet who was then a member of the 
Committee said at the time, well if that is true and if there 
is that much agreement, then why don't we do what you 
recommend. So, we started talking with Senators, students, 
college administrators, and others about how to simplify the 
FAFSA. Started gaining traction. First, the Obama 
administration allowed families to fill out the FAFSA using 
their tax information from the previous year, so that they 
could apply to school in the fall rather than have to wait 
until spring. And second, the Trump administration has put the 
FAFSA application on a phone app. I was in Sevier County High 
School in Tennessee in November, Dolly Parton' s high school by 
the way, and saw students zipping through the FAFSA on their 
iPhone.
    Third, last year the Senate passed legislation that Senator 
Murray and I introduced that allows students to answer up to 22 
questions on the FAFSA with just one click and will stop 
requiring students to give the same information to the Federal 
Government twice. I cannot tell you how many times families 
have asked me in Tennessee, why do I have to give the same 
information to the Federal Government twice.
    The final step should be our bipartisan solution that will 
reduce the number of questions on the FAFSA from 108 to between 
15 and 25. In 2015, Senator Bennet and I, along with Senator 
Booker, Burr, King, Enzi, Warner, and Isakson introduced 
bipartisan legislation that would have reduced the number of 
FAFSA question to two, but after discussions with college 
administrators and states, we realized we needed to keep some 
questions, or states and schools would have to create their own 
additional forms that students would need to fill out so we 
wouldn't have gained anything. Over the last four years, we 
have improved that legislation and now believe we can move 
forward with bipartisan legislation that would reduce the FAFSA 
to 15 to 25 questions.
    Here is what all of these improvements meant to the 20 
million families that fill out the FAFSA every year. One, it 
reduces the questions, 108 to between 15 and 25. Two, 
dramatically decreased the number of students selected for 
verification because students' tax data would automatically 
transfer to the Department of Education, which would greatly 
reduce the need for verification. Many students and counselors 
tell me the verification process is worse than filling out the 
FAFSA. Three, simplifying the form in the verification process 
should encourage more students to apply for Federal aid, which 
will ensure that eligible students receive the Pell they 
deserve. Four, students can now complete the FAFSA on their 
iPhone. Five, families can now apply for Federal aid sooner 
because they can use information from last year's tax return. 
Six, students can find out as early as the eighth grade how 
much Pell Grant funding they may be eligible for. And seven, 
there is a $6 billion advantage to tax payers. That is the 
amount the Department of Education estimates is issued in 
improper payments every year.
    These are seven huge advantages and are the result of five 
years of bipartisan hearings and work by Senators, and work by 
both the Obama and the Trump administrations. These bipartisan 
discussions have produced a lot of agreement on simplifying the 
number of questions, and the purpose of this hearing is to 
learn what we need to know before taking the final step. Now I 
also hear from students, can you make repaying student loans 
simpler. And a large number of Senators both Republicans and 
Democrats have suggested streamlining the nine ways to repay 
student loans to two different ways. These include Senator 
Warner, Senator King, Rubio, Merkley, Burr, Senator Baldwin, 
and others. I have proposed having just two ways to repay 
student loans. That is the same idea that many of these other 
Senators have too.
    One, a plan based on a borrower's income, which would never 
require the borrower to make payments of more than 10 percent 
of his or her discretionary income. If a borrower wanted to pay 
off their loan, the other option would be a 10-year payment 
plan with equal monthly payments similar to a 10-year mortgage. 
And under both options, a borrower's payment would come 
directly from their paycheck. This proposal would make it 
easier for more than 9 million borrowers annually and any of 
the current 42 million borrowers with outstanding Federal loan 
debt to take advantage of a simpler and more affordable way to 
repay their loans.
    Finally, from administrators I hear, can't you do something 
about the jungle of red tape, the administrative burden that 
wastes time and money that could instead be spent on students 
to help administrators overwhelmed by what the Kerwin-Zeppos 
report called ``a jungle of red tape.'' And I propose that we 
simplify Federal regulations that take time and money away from 
educating students, basically following the recommendations of 
that report. There are other steps this Committee is 
considering to make college worth students' time and money, but 
we also have the opportunity to greatly simplify the chilling 
effect applying for Federal aid has on students today.
    Senator Baldwin.

                  OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Chairman Alexander, and I would 
like to submit Senator Murray's opening statement for the 
record.
    The Chairman. Thank you. It will be.
                                ------                                

                 [opening statement of senator murray]
        Thank you Chairman Alexander.
        I am pleased this Committee is working toward a comprehensive 
        reauthorization of the Higher Education Act that addresses some 
        of the most important issues students are facing in higher 
        education.
        It is also a positive step that this Committee is working to 
        find common ground--in contrast with the approach taken by the 
        current administration.
        Just yesterday--the President proposed to slash more than $200 
        billion in Federal student aid through cuts to

        <bullet>  campus-based aid,

        <bullet>  Pell Grant funding,

        <bullet>  and student debt relief

        <bullet>  to pay for proposals that have all been soundly 
        rejected by Congress.

        Instead of that divisive approach--we are working together to 
        achieve a reauthorization that responds to the realities faced 
        by our students and their families.
        I have made it very clear that in order for a reauthorization 
        to be truly comprehensive--it must address four student-
        centered priorities.
        Making college more affordable and addressing the exploding 
        student debt crisis . . .
        Holding colleges accountable for student's success . . .
        Increasing access and opportunities for historically 
        underrepresented students . . .
        Ensuring our students are able to learn in an environment free 
        from discrimination, harassment, and assault.
        Simplifying the FAFSA would certainly help make college more 
        affordable and accessible for some students . . .
        But that alone will not adequately address these challenges.

        I hope during our conversation today we can approach this issue 
        as one piece in a larger puzzle that includes providing more

        <bullet>  aid,

        <bullet>  support,

        <bullet>  and investment in our students.

        While I am glad we are having another hearing on the Chairman's 
        top priority . . .
        There are many difficult challenges at hand in this 
        reauthorization and I look forward to digging into other issues 
        of concern in my caucus,

        <bullet>  including campus safety,

        <bullet>  accountability,

        <bullet>  and more.

        But today's topic at hand is potential changes we can make to 
        the FAFSA to connect students with the support they need.
        I believe one of the most beneficial things we can do to help 
        students receive their financial aid is to reduce the burden of 
        verification.
        We're asking our students to jump through hoops to provide the 
        same financial information over and over again . . .
         . . . and this immense burden is resulting in students leaving 
        money on the table.
        When students can't complete the overly complicated process of 
        verification--referred to as the ``verification melt''--they 
        often drop out altogether.
        We can--and should--eliminate unnecessary questions on the 
        FAFSA form and make it seamless to transfer over tax 
        information . . .
        But any changes we make must ensure that low-income students 
        not only have access to Pell Grants, but also easy access to

        <bullet>  campus-based aid,

        <bullet>  state-based financial aid,

        <bullet>  and Federal benefit programs to help with the costs 
        of food, housing, health care, and more.

        This is personal for me--I wouldn't have been able to go to 
        college without the help of Federal financial aid including 
        Pell Grants and Work Study programs.
        I'm not alone in this . . .
        Colleges want to ensure low-income students have the support 
        they need . . .
        But if we inadvertently push them to increase the burden on 
        students by filling out two or more forms----

        <bullet>  the FAFSA

        <bullet>  and school-specific forms . . .

        Low-income students could potentially struggle even more than 
        they already do to get the help they need.
        We need to ensure the questions are targeted to ensure the 
        students who may need more support--including

        <bullet>  first generation college students,

        <bullet>  students who aren't in contact with their parents,

        <bullet>  homeless and foster youth,

        <bullet>  student parents,

        <bullet>  veterans and servicememembers,

        <bullet>  and more----

        <bullet>  are getting the help they need.

        The data collected from the FAFSA should be used not just to 
        connect students with financial benefits----

        <bullet>  but also to help students throughout their time in 
        college.

        Thankfully--we're already making progress on getting students 
        the help they need.
        At the request from Congress--the Obama administration allowed

        <bullet>  students to apply for financial aid earlier,

        <bullet>  with more accurate tax return information,

        <bullet>  and also streamlined the FAFSA for homeless and 
        foster youth.

        In last year's spending bill, I helped establish new methods 
        for colleges to securely share FAFSA data with a student's 
        consent to connect them with Federal benefits programs 
        including,

        <bullet>  Medicaid,

        <bullet>  SNAP,

        <bullet>  Special Supplemental Nutrition Program for Women, 
        Infants and Children--or WIC

        <bullet>  Temporary Assistance for Needy Families,

        <bullet>  and more.

        In my home State of Washington--we're working together to get 
        the word out about FAFSA completion and to provide students 
        with additional support to navigate the financial aid process.
        Now--students can apply for the FAFSA through an app on their 
        phones and fill it out at their own pace.
        I hope as we work to reauthorize the Higher Education Act--we 
        can build on this progress . . .
         . . . and make it easier for students to access financial aid 
        and the benefits and support they need to succeed in higher 
        education.
        However--as we work through this vast and complicated 
        reauthorization, there are steps that can be taken right now to 
        ease the burden on students.

        Under the Trump administration, low-income students are being 
        flagged for verification at a rate much higher than in previous 
        years . . .
        The process to transfer over tax return information on the 
        FAFSA is clunky and frequently doesn't work for many who try to 
        use it.
        Secretary DeVos must take steps to address these flaws and to 
        help low-income students access the benefits and aid they need 
        without jumping through unnecessary hoops.
        Finally, I want to touch on a topic I mentioned briefly at the 
        beginning of my statement.
        Simplifying the FAFSA and easing the burden of verification are 
        important steps to address our goals of making college more 
        affordable and accessible to students . . .
        But it does not do enough to truly address the skyrocketing 
        costs of college.
        Right now the maximum Pell Grant is only $6,195--not nearly 
        enough to cover all of the costs students incur while in higher 
        education.
        While

        <bullet>  the Supplemental Educational Opportunity Grant or S-
        E-O-G,

        <bullet>  Work Study,

        <bullet>  state financial aid,

        <bullet>  and other grants and scholarships can help . . .

        This patchwork system usually doesn't come close to meeting the 
        total costs of college, including

        <bullet>  transportation,

        <bullet>  textbooks,

        <bullet>  housing,

        <bullet>  food,

        <bullet>  child care,

        <bullet>  and more.

        I've heard from students who are living in their cars . . .
        Can't afford the hundreds of dollars they are required to spend 
        on text books . . .
        Can't find affordable child care near campus . . .
        Many can't afford to even eat.
        A recent study by the Government Accountability Office 
        confirmed that hunger on college campuses is a widespread and 
        national issue,

        <bullet>  but nearly two million students who were eligible for 
        help paying for food weren't getting it.

        If we are serious about connecting students to Pell Grants--we 
        must also be serious about

        <bullet>  connecting them to other benefits

        <bullet>  and truly making college affordable through this 
        reauthorization.

        I want to thank our witnesses for being here today . . .
        As we have a conversation around improving the FAFSA today--I 
        hope we can do it with the other issues surrounding college 
        affordability in mind.
        Thank you.
                                 ______
                                 
    Senator Baldwin. I also want to thank you, Mr. Chairman and 
Ranking Member Murray, for convening this important hearing and 
for the work toward advancing a much needed reauthorization of 
the Higher Education Act. I am really looking forward to 
hearing from our witnesses today about how this Committee can 
continue to improve the process by which students and their 
families access student aid through FAFSA. And I am 
particularly interested to hear more about the issue of income 
verification and its impact on low-income students.
    While I agree we must do more to remove barriers that 
discourage students from seeking and receiving financial 
support for which they qualify under current law, doing so is 
only one step in making higher education more accessible and 
affordable. So, I believe we must also commit to strengthening 
and expanding our Federal financial aid programs in order to 
help students in need afford the true cost of college and earn 
a higher education without taking on suffocating debt. As we 
work toward a comprehensive Higher Education Act 
reauthorization, I hope this Committee will build on today's 
conversation about improving access and affordability by also 
focusing on strengthening and improving institutional 
accountability, as well as addressing discrimination and safety 
on college campuses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Baldwin. I am pleased to 
welcome our witnesses today. I turn to Senator Jones to 
introduce the first witness.
    Senator Jones. Thank you, Chairman Alexander, I appreciate 
that. I am pleased to welcome this morning and introduce Ms. 
Kristina Scott. Ms. Scott is the Executive Director of Alabama 
Possible located in Birmingham, Alabama. Alabama Possible is a 
statewide nonprofit whose mission is to remove barriers to 
prosperity through education, collaboration, and advocacy. 
Alabama Possible has several initiatives to accomplish their 
goals, including Cash for College that encourages Alabama high 
school students to complete the FAFSA. Due to her work and 
others throughout the state, Alabama had the fourth highest 
increase in FASFA completions from 2017 to 2018.
    Today she will share some of the challenges that students 
face while completing the FAFSA, and broader issues surrounding 
college access. Ms. Scott, thank you so much for joining us 
today. I really look forward to hearing your testimony.
    The Chairman. Thank you, Senator Jones. And on behalf of 
Senator Murray, it is my pleasure to introduce Michael Meotti, 
Executive Director of the Washington Student Achievement 
Council. In that role, he manages the State's Financial Aid 
College Readiness and College Savings Programs. Before being 
appointed to the Washington Student Achievement Council, he 
served as Commissioner of the Connecticut Department of Higher 
Education, Executive Vice President of the Connecticut Board of 
Regents for Higher Education, and President of the United Way 
of Connecticut. He received his bachelor's degree and JD from 
Georgetown University.
    Senator Murphy. I know Senator Murray likes to claim Mr. 
Meotti, but he is really one of ours.
    The Chairman. That is true. Senator Murphy, would you like 
to make any comment about his time in Connecticut?
    Senator Murphy. No, you did him justice.
    The Chairman. Good. Thank you very much. Our next witness, 
Dr. Mark Wiederspan, Executive Research Officer of the Iowa 
College Student Aid Commission. His research focuses on college 
affordability, the design of Federal and state financial aid 
programs. Dr. Wiederspan is an affiliated researcher at the 
University of Michigan's Education Policy Initiative. He was a 
faculty member at Arizona State University. He earned his 
master's and Ph.D. at the University of Michigan.
    Final witness is Dr. Michelle Scott Taylor, Chief Program 
Officer at the College Now Greater Cleveland. College Now 
Greater Cleveland provides college advising, financial aid 
counseling, scholarship retention services to over 29,000 
middle school, high school, and adult learners per year. She 
was coordinator of access and retention at John Carroll 
University. Is a senior research analyst for Cosmos 
Corporation. She is also the CEO and Principal of Global 
Learning Solutions, a consulting firm she started that provides 
a variety of services to small businesses and nonprofits. She 
earned her degrees from Pittsburg and Kent State University and 
the University of Akron.
    We thank all four of you for being here today. I would 
remind each of you if you could summarize your comments in 
about 5 minutes, then that will leave more time for Senators to 
ask you questions. Ms. Scott, let us start with you.

   STATEMENT OF KRISTINA SCOTT, EXECUTIVE DIRECTOR, ALABAMA 
                   POSSIBLE, BIRMINGHAMN, AL

    Ms. Scott. Thank you, Chairman Alexander, Senators Baldwin 
and Jones, and Members of the Committee for this opportunity to 
share what we have learned from students like Caitlin, who 
lives in rural Northwest Alabama.
    Caitlin's parents are not in her life, and her grandparents 
raised her. However, they do not have a legal custody or 
guardianship relationship, which is very common. Caitlin filed 
her FAFSA to qualify for her local Promise scholarship, and she 
was selected for verification. Her father would not provide his 
tax transcript, and even though her grandfather wrote to the 
President and to Governor Kay Ivey, the community college could 
not clear the verification. The only reason she is in college 
today is because the local scholarship foundation decided to 
step up and pay the entire cost of her tuition. Well, she had a 
good result. Most students are not as lucky as Caitlin.
    Alabama Possible provides direct services to nearly 1,500 
Birmingham, Alabama area students, and we lead the statewide 
Cash-for-College FAFSA Completion Campaign, which brings 
together 328 high schools with the Alabama State Department of 
Education, community college system, Commission on Higher 
Education, our local Bold Goals Coalition, and scores of other 
partners. In our work, college includes technical and academic 
certificates and degrees from two-year and four-year colleges.
    Congress and the U.S. Department of Education have worked 
together to simplify the financial aid process and thank you 
for those efforts. However, the FAFSA continues to be a barrier 
to post-secondary attainment. Most people get help filing their 
taxes from something like H&R Block, or we use TurboTax, or you 
go and get help from a federally funded volunteers and tax 
assistance program. And so, one of my questions is, do we need 
to build a similar system for FAFSA completion, or would our 
limited public and private resources be better spent supporting 
students' success? That is why we ask you to increase financial 
aid form completion and thus improve post-secondary attainment 
and workforce readiness with three approaches.
    First, streamline the FAFSA. The FAFSA has more than 100 
questions, but nearly one-third apply to fewer than 1 percent 
of filers. The FAFSA also uses confusing terms like emancipated 
minor, and Federal student aid had to create a flowchart in 
order to explain who a student's parent is, for purposes of 
filing the FAFSA. A streamline FAFSA with 15 to 25 questions 
about the student, their family, and where they want to go to 
college will give the Department the ability to assess a 
student's need. Another opportunity to streamline the FAFSA is 
allowing students who face parental abandonment, abuse, or 
neglect, like Caitlin, to submit their FAFSA as a provisionally 
independent student after answering one screening question. 
Colleges would be required to contact their admitted students 
to discuss the next steps for applying for a dependency 
override. So, the burden would be placed on the college rather 
than on the student.
    Second, focus the process on funds available to pay for 
college. Students who complete their FAFSA get a student aid 
report with their expected family contribution. I have seen 
this over and over again that focusing the financial aid 
process in what a family is expected to pay rather than the aid 
they qualify for is a barrier to college access and success. In 
addition, if the neediest students had an expedited process 
which awarded Pell Grants to those students whose families 
received means-tested Federal benefits such as the SNAP, then 
those students would know that they could pay for college 
without having to resubmit income data. One of the reasons that 
College Promise programs have a powerful impact is that 
students get a clear message that they will be able to pay for 
their education after high school and means testing could have 
a similar impact for low-income students.
    Third, decrease of verification burden. Roughly half of all 
Pell-eligible filers are flagged for verification, an estimated 
25 percent of applicants then abandon the financial aid 
process, making it less likely that they will enroll in 
college. A shocking 59 percent of Birmingham city schools 
graduates last year who filed a FAFSA, were selected for 
verification. And even with the fixes to the verification 
algorithm, 38 percent of this year's Birmingham city schools 
FAFSA filers have been selected for verification. By 
comparison, the IRS audits fewer than 1 percent of tax filers 
with an adjusted gross income of up to $500,000.
    Today, our bank accounts connect with our budgeting and tax 
software, and we should not have to ask family to continually 
re-enter complicated financial information. This is unnecessary 
red tape. And not--all students can even use the data retrieval 
tool. Perhaps they do not file taxes, or they file as head of 
household, they have to provide a verification letter or a tax 
transcript, and that is an extra hurdle to jump through. IRS 
data sharing could fix these issues both on the filing side and 
on the verification side. The American economy depends on 
having a qualified workforce. Making post-secondary education 
more accessible and affordable for families would streamline 
the financial aid process and result in a stronger and more 
prosperous Nation.
    Thank you.
    [The prepared statement of Ms. Scott follows:]
                  prepared statement of kristina scott
    Thank you, Chairman Alexander, Ranking Member Murray, and Members 
of the Committee for this opportunity to discuss how simplifying the 
Free Application for Federal Student Aid (FAFSA) and reducing the 
burden of verification will make education after high school more 
accessible and attainable for all students, especially low-income and 
first-generation college-going students.

    Alabama is the Nation's sixth poorest state, and 900,000 
Alabamians, 300,000 of whom are children, live below the poverty line. 
I lead Alabama Possible, a statewide nonprofit organization dedicated 
to breaking down barriers to prosperity through advocacy, education, 
and collaboration.

    A low-income student is only half as likely as a high-income 
student to complete a postsecondary certificate or degree by age 26. 
However, those low-income Americans who do obtain a college degree are 
five times more likely than their peers to rise out of poverty. \1\
---------------------------------------------------------------------------
    \1\  Postsecondary Attainment: Differences by Socioeconomic Status 
(2015). Institute of Education Sciences, U.S. Department of Education. 
nces.ed.gov/programs/coe/indicator_tva.asp.

    Alabama Possible began our college access work in 2009 with a 
small, direct service program that teamed high school students with 
college students to plan, prepare, and pursue their college education. 
From the very beginning, we defined college to include a broad range of 
valuable postsecondary credentials, including technical and academic 
certificates and degrees from two-and four-year colleges and 
---------------------------------------------------------------------------
universities.

    We started with a misperception that students didn't want to go to 
college. Instead, we quickly learned that our students wanted to go to 
college, but they had no idea how to pay for it. They did not know that 
financial aid, including Pell Grants, is available for students like 
them.

    These Alabama students' stories reflect national research findings: 
most low-income students who do not apply for aid do not do so because 
they believe that they are not eligible. That's true even though a 
large percentage of these students would receive aid if they filed 
their FAFSA. \2\
---------------------------------------------------------------------------
    \2\  Radwin, D., Wine, J., Siegel, P., and Bryan, M. (2013). 2011-
12 National Postsecondary Student Aid Study (NPSAS:12): Student 
Financial Aid Estimates for 2011-12 (NCES 2013-165). Institute of 
Education Sciences, U.S. Department of Education. nces.ed.gov/pubs2013/
2013165.pdf.

    The National College Access Network wanted to know more, so they 
---------------------------------------------------------------------------
did a nationwide quantitative survey. Their findings include:

        1. The whole question of ``eligibility'' is moot if students 
        don't actually know anything about financial aid.

        2. There is no lack of information about financial aid; it's 
        just not getting to the students who need it most.

        3. Students who did not apply for financial aid were more 
        likely to have a negative perception of loans.

        4. Males were more likely to be misinformed or uninformed about 
        financial aid and do not want aid in general.

        5. Students who did not apply for financial aid were more 
        likely to prefer to pay for their schooling out of pocket.

        6. Many students who did not apply for financial aid were not 
        confident that they could rely on their schools for support.

        7. Students who did not apply for financial aid were more 
        likely to believe that their parents did not want to share 
        their information.

        8. Students whose parents did not attend college were as likely 
        to apply for financial aid as those whose parents did attend 
        college.

        9. Latino students were more likely to believe that there were 
        opportunities to receive financial aid. \3\
---------------------------------------------------------------------------
    \3\  Cook, K., Morgan, E., Ciaramella, A., Keller, M., Kantrowitz, 
M., Jones, K., Schlaikjer, E., and Ahern, M. (2016). Financial Aid 
Eligibility Mindsets Among Low-Income Students: Why Do Some Believe 
They Can't Receive Financial Aid for College? National College Access 
Network and Huge. collegeaccess.org/images/documents/HugeResearch.pdf.

    We listened to our students and quickly pivoted to emphasize FAFSA 
completion and financial aid. Today, we provide direct services to 
nearly 1,500 Birmingham-area students and lead the statewide Cash for 
College campaign, which brings together 328 high schools along with the 
Alabama State Department of Education, Alabama Community College 
System, Alabama Commission on Higher Education, the Bold Goals 
Coalition (a regional cradle-to-career network), and scores of other 
partners. Together, we build a school-wide college-going culture by 
raising expectations for student success and supporting all students 
with tools and relationships necessary to pursue their education after 
---------------------------------------------------------------------------
high school.

    We aim to build a system which supports students pursuing 
postsecondary education, and the FAFSA presents an overwhelming barrier 
for too many students and families. For many families, the FAFSA is 
longer than their tax form.

    We are in the midst of tax season. Most people get help filing 
their taxes from for-profit tax preparers like H&R Block and TurboTax 
or local nonprofits participating in the federally funded Volunteers in 
Tax Assistance (VITA) program. \4\
---------------------------------------------------------------------------
    \4\  IRS Urges Taxpayers to Choose a Tax Preparer Wisely for the 
Filing Season Ahead (2014). Internal Revenue Service. irs.gov/newsroom/
irs-urges-taxpayers-to-choose-a-tax-preparer-wisely for-the-filing-
season-ahead.

    Do we want to build a companion system for FAFSA completion, or 
would our limited public and private resources be better spent 
---------------------------------------------------------------------------
supporting student success?

    Congress and the US Department of Education have worked together to 
simplify the FAFSA in recent years, and we applaud those efforts. 
Improvements include the FAFSA opening on October 1 instead of January 
1, use of prior-prior year taxes, expanded implementation of the IRS 
Data Retrieval Tool, the MyStudentAid app, and access to student-level 
FAFSA completion data for educators.

    However, by June 30 of last year, only 54.7 percent of Alabama's 
2018 high school seniors completed their FAFSA. That is below the 
national average and ranks 31st among our fellow states. \5\ As a 
result, Alabama families left $47.4 million in Pell Grants on the table 
and millions more in need-and merit-based scholarships, grants, and 
work-study jobs. \6\
---------------------------------------------------------------------------
    \5\  Form Your Future FAFSA Tracker (2018). National College Access 
Network. public.tableau.com/profile/
bill.debaun.national.college.access.network#!/vizhome/
FormYourFutureFAFSA-Tracker-2018-19FAFSACycleThroughJune292018/
CurrentWeekRanking.
    \6\  Helhoski, A. (2018). Students Missed Out on $2.6 Billion in 
Free College Money. Nerdwallet. nerdwallet.com/blog/2018-fafsa-study/.

    That's why we are here to ask you to increase FASFA completion, and 
thus improve postsecondary attainment and workforce readiness, with 
---------------------------------------------------------------------------
three approaches:

    First, streamline the FAFSA. The current FAFSA poses more than 100 
questions to prospective college students. \7\ Nearly one-third of the 
questions apply to fewer than 1 percent of all filers. \8\ The FAFSA 
also uses terms such as ``emancipated minor'' that are unfamiliar to 
many applicants, and Federal Student Aid had to create a flow chart to 
determine who is a student's parent for purposes of the FAFSA. \9\
---------------------------------------------------------------------------
    \7\  2019-20 Free Application for Federal Student Aid (2018). U.S. 
Department of Education. studentaid.ed.gov/sa/sites/default/files/2019-
20-fafsa.pdf.
    \8\  Better for Students: Simplifying the Federal Financial Aid 
Process (2015). Bill and Melinda Gates Foundation. 
postsecondary.gatesfoundation.org/wp-content/uploads/2015/07/FAFSA-
Approach_FINAL_7_7_15.pdf.
    \9\  Who's My Parent When I Fill Out the FAFSA? U.S. Department of 
Education. studentaid.ed.gov/sa/sites/default/files/who-is-my-
parent.png.

    A streamlined FAFSA with 15-25 questions about the student, their 
family, and where they want to go to college would give the US 
Department of Education the ability to assess a student's need while 
---------------------------------------------------------------------------
cutting out unnecessary and often-intrusive questions.

    Another opportunity to streamline the FAFSA is allowing students 
who are unable to provide parent information because they face parental 
abandonment, abuse, or neglect to submit their FAFSA as a 
``provisionally independent'' student after answering a single 
screening question. The student would receive an Estimated Family 
Contribution (EFC) and estimated Pell Grant award amount based on the 
provisional independent status. The student's Institutional Student 
Information Record (ISIR) would indicate the provisional status, and 
schools would be required to reach out to admitted students to discuss 
the next steps for applying for a dependency override.

    This situation makes me think about Caitlyn, who lives in rural 
Northwest Alabama. Her community has a promise scholarship to the local 
community college which requires that students complete the FAFSA. 
Caitlyn's parents are not in her life, and her grandparents raised her. 
However, they do not have legal custody or guardianship. During her 
senior year, Caitlyn filed her FASFA with the help of her school 
counselor. Unfortunately, she was selected for verification, and her 
community college asked for a copy of her father's tax transcript. Her 
father would not give it to her, and despite her grandfather's vocal 
advocacy, including writing to Alabama Governor Kay Ivey, her community 
college could not clear the verification. The only reason she is in 
college today is because the private scholarship foundation decided to 
cover the entire cost of her tuition. While she had a good result, most 
students are not as lucky as Caitlyn.

    Streamlining the FAFSA will provide low-income families with the 
financial and emotional relief they need when preparing for college.

    Second, focus the process on funds available to pay for college. 
Today, students who complete their FAFSA get a Student Aid Report, 
which informs them of their Expected Family Contribution, or EFC. That 
number, in turn, is used to calculate access to Pell Grants and other 
need-based financial aid. Focusing the process on what a family is 
expected to pay, instead of on grants and other assistance for which 
they qualify, is confusing and off-putting for the low-income families 
we serve.

    In addition, if the neediest students had an expedited process 
which awarded Pell Grants to students whose families received means-
tested Federal benefits, such as the Supplemental Nutrition Assistance 
Program, then those students would know that they could pay for college 
without having to resubmit income data they have already provided to 
qualify for those benefits. One of the reasons that college promise 
programs have a powerful impact is that students get a clear message 
that they will be able to pay for their education after high school. 
These recommendations could similarly impact college-going outcomes for 
low-income students.

    Third, decrease the verification burden. Verification is an audit-
like process to confirm information provided on the FAFSA. Roughly half 
of all filers eligible for a Pell Grant are flagged for verification. 
An estimated 25 percent of applicants abandon the financial aid process 
after being flagged for verification, making it much less likely that 
they will enroll in college. \10\
---------------------------------------------------------------------------
    \10\  Warick, C. (2018) FAFSA Verification: Good Government or Red 
Tape? National College Access Network. collegeaccess.org/images/
documents/Verification_White_Paper_2018.pdf.

    A shocking 59.2 percent of 2018 Birmingham City Schools graduates 
who filed a FAFSA were selected for verification. \11\ Even with the US 
Department of Education's fixes to the verification algorithm, \12\ 
37.8 percent of this year's Birmingham City Schools FAFSA filers have 
been selected for verification. \13\
---------------------------------------------------------------------------
    \11\  FAFSA Completion. Alabama Commission on Higher Education. 
fafsa.ache.edu.
    \12\  McCarthy, K. (2018). ED Adjusts Verification Selection 
Algorithm, Selection Rates to Normalize. National Association of 
Student Financial Aid Administrators. nasfaa.org/news-item/14035/
ED_Adjusts_Verification_Selection_Algorithm_Selection_Rates_to_Normalize
 
    \13\  FAFSA Completion. Alabama Commission on Higher Education. 
fafsa.ache.edu.

    By comparison, the IRS audits fewer than 1 percent of tax filers 
with an adjusted gross income of up to $500,000. \14\
---------------------------------------------------------------------------
    \14\  Enforcement: Examinations. Internal Revenue Service. 
www.irs.gov/statistics/enforcement-examinations.

    Increasing data-sharing among Federal agencies, particularly the 
Internal Revenue Service, would help repair the leaky FAFSA pipeline. 
\15\ While families can use the IRS Data Retrieval Tool (IRS DRT) to 
transfer information from their Federal income tax returns to the 
FAFSA, it is not always a smooth process.
---------------------------------------------------------------------------
    \15\  The Leaky FAFSA Pipeline (2017). National College Access 
Network. collegeaccess.org/images/documents/leakyFAFSApipeline.jpg.

    I had my own difficulties using the IRS DRT last fall when I tried 
to file my FAFSA to test out the new MyStudentAid app. I could not 
remember what tax form I used: the 1040, 1040A, or 1040EZ. I made the 
wrong choice and had to start the process all over again. I graduated 
from law school, and I know how to fill out forms. If I had trouble, I 
can only imagine how difficult it can be for a first-generation student 
---------------------------------------------------------------------------
and their family.

    In a day and age when our bank accounts automatically sync with our 
bookkeeping and tax software, we should not have to ask families to 
repeatedly enter and re-enter complicated financial information. 
Government can work more efficiently by breaking down barriers between 
agencies.

    Applicants who cannot use the IRS DRT for some reason, such as they 
forget which tax form they used, are not required to file taxes, or 
they or their parent filed as the head of household, may be required to 
provide an IRS Tax Return Transcript or a Verification of Non-Filing 
Letter. Students selected for verification typically must also provide 
these documents to their school's financial aid office.

    When families cannot access their tax transcript electronically, it 
takes up to two weeks to get it via mail. However, if the student or 
their family has moved or it sent to a different address from the one 
on their tax return two years prior, then it can take up to six weeks 
to receive it by mail.

    IRS data sharing would simplify this process, reduce errors, and 
eliminate barriers to financial aid eligibility. As a result, more 
students who apply for financial aid would actually receive financial 
aid.

    Simplifying the FAFSA and reducing the burden of verification is 
urgent, because postsecondary education is the bridge between jobs and 
the labor skills gap.

    Next year, 65 percent of all jobs will require education beyond 
high school. \16\ However, only 47.6 percent of working-age Americans 
hold postsecondary credentials. \17\
---------------------------------------------------------------------------
    \16\  Carnevale, A., Smith, N., Strohl, J. (2013). Recovery: Job 
Growth and Education Requirements Through 2020. Georgetown University 
Center on Education and the Workforce. cew.georgetown.edu/recovery2020.
    \17\  A Stronger Nation: Learning Beyond High School Builds 
American Talent. Lumina Foundation. 
strongernation.luminafoundation.org/report/2019/#nation.

    In Alabama, only 43 percent of adults had valuable postsecondary 
credentials as of 2017, while 51 percent of job openings will require 
such a credential by 2025. \18\ In order to close this gap, Governor 
Kay Ivey set a goal of adding 500,000 individuals with valuable 
postsecondary credentials to the state's workforce. In her Success Plus 
plan to achieve this bold goal, she recognized that financial aid is a 
critical component of improving educational and workforce outcomes. 
\19\
---------------------------------------------------------------------------
    \18\  Success Plus Dashboard. Alabama Workforce Council. 
alabamaworks.com/successplus/.
    \19\  Alabama statewide Attainment Committee (2018). Success Plus: 
Preparing Alabama's Workforce for Opportunities and Growth. Alabama 
Workforce Council. alabamaworks.com/wp-content/uploads/
2018.04.30_SuccessPlus.pdf.

    The American economy depends on having a qualified workforce. 
Making postsecondary education more accessible and affordable for 
families by streamlining the financial aid process will result in a 
---------------------------------------------------------------------------
stronger, more prosperous nation.

    Thank you again for the opportunity to share our stories and 
insights with you.
                                 ______
                                 
                 [summary statement of kristina scott]
    We are here to ask you to simplify the Free Application for Federal 
Student Aid (FAFSA) and reduce the burden of verification with three 
approaches:

    First, streamline the FAFSA. The current FAFSA poses more than 100 
questions to prospective college students. Nearly one-third of the 
questions apply to fewer than 1 percent of all filers. The FAFSA also 
uses terms such as ``emancipated minor'' that are unfamiliar to many 
applicants, and Federal Student Aid had to create a flow chart to 
determine who is a student's parent for purposes of the FAFSA. A 
streamlined FAFSA with 15-25 questions about the student, their family, 
and where they want to go to college would give the US Department of 
Education the ability to assess a student's need while cutting out 
unnecessary and often-intrusive questions.

    Another opportunity to streamline the FAFSA is allowing students 
who are unable to provide parent information because they face parental 
abandonment, abuse, or neglect to submit their FAFSA as a 
``provisionally independent'' student after answering a single 
screening question. The student would receive an Estimated Family 
Contribution (EFC) and estimated Pell Grant award amount based on the 
provisional independent status. The student's Institutional Student 
Information Record (ISIR) would indicate the provisional status, and 
schools would be required to reach out to admitted students to discuss 
the next steps for applying for a dependency override.

    Second, focus the process on funds available to pay for college. 
Today, students who complete their FAFSA get a Student Aid Report, 
which informs them of their Expected Family Contribution, or EFC. That 
number, in turn, is used to calculate access to Pell Grants and other 
need-based financial aid. Focusing the process on what a family is 
expected to pay is confusing and off-putting.

    In addition, if the neediest students had an expedited process 
which awarded Pell Grants if they already receive means-tested Federal 
benefits, then those students would know that they could pay for 
college without having to resubmit income data they have already 
provided to qualify for those benefits.

    Third, decrease the verification burden. Verification is an audit-
like process to confirm information provided on the FAFSA. Roughly half 
of all filers eligible for a Pell Grant are flagged for verification. 
An estimated 25 percent of applicants abandon the financial aid process 
after being flagged for verification, making it much less likely that 
they will enroll in college. By comparison, the IRS audits fewer than 1 
percent of tax filers with an adjusted gross income of up to $500,000.

    Increasing data-sharing among Federal agencies, particularly the 
Internal Revenue Service, would help repair the leaky FAFSA pipeline. 
While families can use the IRS Data Retrieval Tool (IRS DRT) to 
transfer information from their Federal income tax returns to the 
FAFSA, it is not always a smooth process. We should not have to ask 
families to repeatedly enter and re-enter complicated financial 
information. Government can work more efficiently by breaking down 
barriers between agencies.

    Applicants who cannot use the IRS DRT for some reason may be 
required to provide an IRS Tax Return Transcript or a Verification of 
Non-Filing Letter. Students selected for verification typically must 
also provide these documents to their school's financial aid office.

    When families cannot access their tax transcript electronically, it 
takes up to two weeks to get it via mail. However, if the student or 
their family has moved or it sent to a different address from the one 
on their tax return two years prior, then it can take up to six weeks 
to receive it by mail.

    IRS data sharing would simplify this process, reduce errors, and 
eliminate barriers to financial aid eligibility. As a result, more 
students who apply for financial aid would actually receive financial 
aid.
                                 ______
                                 
    The Chairman. Thank you, Ms. Scott.
    Mr. Meotti.

  STATEMENT OF MICHAEL MEOTTI, EXECUTIVE DIRECTOR, WASHINGTON 
            STUDENT ACHIEVEMENT COUNCIL, OLYMPIA, WA

    Mr. Meotti. Thank you, Mr. Chairman.
    Student Achievement Council is a State Higher Education 
Agency. It is somewhat of an unusual name, but I have had the 
privilege of working with my peers around the country, 
including some of my colleagues from every state around the 
table right now in terms of Committee Members. And we are 
involved in financial aid and a full range of higher education 
policy issues. Washington is a very strong partner with the 
Federal Government in financial aid and higher education in 
general. Our total state grant programs are almost equal to the 
total Pell investment for Washington residents attending 
Washington public and private institutions. It is a 54-46 
split. Governor Inslee has proposed a College Promise 
scholarship model pending in the legislature right now. If that 
passes, it will turn that grant, aid program into an 
entitlement and I am sure we will probably, ultimately become a 
majority partner financially when measured against grant aid on 
the state and Federal level.
    We are also a very strong partner in the actual work of 
helping young people, and older and returning adults, 
understand the availability of financial aid and access to 
higher education. We started in 7th and 8th grade with our 
College Bound Scholarship, which is a very simple process for 
students and families to become a part of. We get data from 
every school in the state on their free and reduced price lunch 
population. We pre-populate a form, print it, send the forms in 
bulk back to the schools, the schools give it to students' 
parents, they check a couple of boxes and sign it. One of the 
boxes is a pledge to fill out the FAFSA when they get to 12th 
grade. We now have over 70 percent of our free and reduced 
price lunch populations statewide in the College Bound 
Scholarship Program. The problem though is when they get to 
12th grade. A third of those who enrolled in College Bound do 
not fill out a FAFSA and do not access those funds because we 
use FAFSA in the state as part of--as the process for awarding 
financial aid in the state.
    In order to help deal with that, a few years ago we 
launched a web portal. So, we update on a weekly basis to every 
high school in the state on an individual student level, 
whether or not a student has filed the FAFSA, and if they have, 
they will know if it is in error-state. And so, we work very 
closely with them not only to try and increase the rate of 
filing, but also to try to manage the error rate and get that 
as low as possible.
    We do a lot of technical assistance for our 12-year 
campaign with high schools and community organizations and want 
to thank Senator Murray for her constant support of messaging 
our work, including just recently taping a public service 
announcement for the campaign. We, like every place in the 
country, have a laundry list of stories of people struggling 
with verification. People in our Native American tribes earn 
substantial income from exercising their treaty rights and 
things like fisheries. They do not have the tax documents to 
respond to verification. Foster youth are frequently asked to 
get court orders of dependency, and many young people are stuck 
with trying to get a W-2 from a few years ago from a national 
branded fast food chain who they think they work for, and they 
do not realize they work for franchisee ``z''--this office is 
maybe who knows where. And that is where they get any 
documentation on the W-2. It is really not a fair partnership 
to have students, schools, and states to compensate for a 
broken verification system.
    We also believe strongly in making the most of all the 
investments to support lower-income Americans. We do use the 
free and reduced price lunch system as a way to deal with our 
College Bound Program. We are also working closely with our 
sister state agencies in Medicaid, SNAP, TANF, and the like, to 
coordinate around the possibility of doing faster completion 
and program cross enrollment for the families that they serve. 
Americans do not live in the silos of these Government 
programs. We have an obligation in our state-Federal 
partnership to break through those barriers. Just let me close 
by sharing four recommendations. Probably get a unanimous 
feeling across the board here that simplifying the FAFSA is 
good but right now I think the real problem is the verification 
system.
    Second, we need to connect students to all available public 
support, especially the major public assistance programs that 
are already part of a state-Federal partnership. We need to 
increase investment in Pell and other grant programs. And we 
need to leverage the Federal investment to increase state 
support for higher education, including building more student 
friendly pathways to financial aid. Washington State stands 
ready to work with this Washington and the Federal Government 
to build a vibrant partnership on these essential issues.
    Thank you.
    [The prepared statement of Mr. Meotti follows:]
                prepared statement of michael p. meotti
    Introduction

    Chairman Alexander, Ranking Member Murray, and distinguished 
Members of the Committee, I appreciate the opportunity to testify today 
on the state partnership with the Federal Government to expand access 
to post-secondary education through financial aid.

    My name is Michael Meotti, and I am the Executive Director of the 
Washington Student Achievement Council (WSAC). WSAC is the state's 
higher education agency and plays a leadership role in state higher 
education policy. We also manage a wide variety of state financial aid 
programs, college readiness programs including GEAR UP, the state's 529 
plans. We also conduct research that informs state decision making and 
community practice.

    I served in leadership roles in a state higher education agency and 
public higher education system in another state. I have worked closely 
with colleagues and other stakeholders around the country in various 
initiatives to increase student access and success. And before my work 
in higher education, I led nonprofit organizations that worked to 
increase economic success for lower income households with a focus on 
how to connect people to the Federal, state and community resources.

    Building a stronger state-Federal partnership

    The state of Washington is already a strong partner with the 
Federal Government in expanding access to higher education especially 
for students from lower income households. Our state's investment in 
student grants to Washington residents going to college in state almost 
matches the total Pell grants awarded to these students. We rank #2 
among all states in state need-based aid per full time equivalent 
undergraduate student.

    But we need to do more to build an environment in which all 
Americans can achieve their life goals in an affordable and student-
friendly educational environment. As we sit here today, the state 
legislature is moving forward on Governor Jay Inslee's proposal to 
fully fund our state need grant. If passed, the rechristened College 
Promise Scholarship Program will match the entitlement of the Pell 
grant so that we can serve all eligible students.

    The Federal partnership with states must go beyond the investment 
in aid. Just making financial aid available is not sufficient to 
overcome the challenges that face students from lower income and first 
generation households and students of color. While states such as 
Washington do collaborate with the Federal Government in concept, we 
could benefit from a more formal partnership supported with funding to 
promote additional investments in affordability and accessibility for 
higher education. The good news is that modest investments and Federal 
incentives to states to support outreach, counseling and support 
programs can go a long way to maximize the return on investment on our 
financial aid dollars.

    Partnering in the work to support access to financial aid

    Washington invests in an extensive body of work to support access 
to financial aid. Much of our work focuses on supporting high schools 
in their efforts to increase high school graduation and college 
enrollment. We are also launching a new initiative to help adults 
understand their program options and available financial support for 
educational pathways.

    Washington's work to support access to financial aid starts in 
middle school. We are one of the few states that have a state funded 
college promise program. Our College Bound Scholarship (CBS) engages 
7th and 8th grade students from lower income households to consider a 
college going path and to understand that financial aid is there to 
make it affordable.

    The College Bound enrollment process is simple. Almost all schools 
in the state upload a student roster to our agency so that we can pre-
populate a ``sign up'' form. WSAC then prints these forms in bulk and 
sends the forms to our schools who distribute them to students and 
parents. Students and parents need only sign the form (sample attached) 
after checking a few boxes to attest to income level, commit to getting 
good grades and completing a FAFSA or WASFA (application for state aid 
for undocumented students) in 12th grade.

    In the 11 years since College Bound started enrolling middle school 
students, the statewide sign up rate reached 70+ percent of all 
students in the free and reduced price lunch program. Early cohorts 
enrolled in CBS have graduated from high school and enrolled in college 
at higher rates than their peers.

    Despite these good signs of progress by College Bound students, 
WSAC staff realized that more than a third were not completing a 
financial aid application in their senior year. We launched our 12th 
Year Campaign several years ago to help high schools increase FAFSA and 
WASFA completion rates among all students.

    WSAC provides a web-based FAFSA data portal to all high schools in 
the state. Approximately 95 percent of high schools have signed data 
sharing agreements to have access to the portal. School staff can see 
which students have filed a FAFSA and if any applications are in 
``error state'' which may mean that a student needs to correct some 
information. We update this data on a weekly basis throughout the 
school year so that school-based staff has almost real time access to 
the status of their students.

    Both WSAC and high school staff help students make the necessary 
corrections to resolve whatever has put an application into error 
state. Last year, the statewide error rate in FAFSA applications filed 
by high school seniors declined to 4.4 percent. I am hopeful that we 
can soon add verification rate information in the data available to 
WSAC and high schools to help us support students through this process 
as well.

    The 12th Year Campaign currently provides technical assistance and 
outreach materials to 197 partners (165 high schools and 27 community 
organizations). The number of partners has been growing annually. 
Partner high schools report a FAFSA completion rate 10 percentage 
points higher than non-partner schools. WSAC launched the Plus 5 Push 
initiative to encourage partners to work toward an annual increase of 5 
points in their application rates. Our staff has developed a variety of 
school recognition techniques to motivate higher performance as we can 
continue to explore how we can better achieve our goals.

    We are particularly proud to work with our state's US Senators and 
congressional delegation to include their leadership voices to 
encourage students. Just this year, Senator Murray recorded a Public 
Service Announcement urging students to continue their education and 
reach out to supports that can help them receive the financial aid that 
makes that possible.

    Struggling with the added complexity of the FAFSA verification 
process

    We know that the FAFSA verification process is now a major obstacle 
to getting financial aid. Our analysis of US Department of Education 
data shows that 31 percent of FAFSA applications or over 155,000 in 
total, filed in 2017-2018 were selected for verification. The data 
system won't allow us to determine how many of these applicants never 
received financial aid, but the stories from our frontline partners 
paint a horror story.

    Washington is the home of 29 federally recognized Indian tribes. 
Many of our educational institutions have staff working directly with 
tribal governments and their members to support access to higher 
education. One community college staff member reports that almost every 
tribal member who files a FAFSA is selected for verification. Many of 
these students earn a living by exercising tribal rights in fisheries 
and other economic activity and are not subject to taxes. This makes 
verification very complicated. In addition, many of these students do 
not participate in the types of financial transactions that are used to 
enable online verification and must use mail verification. In her 
words, ``many of my students are already apprehensive about college and 
are almost looking for an excuse to not continue.''

    The state of Washington is deeply committed to supporting 
educational success for foster youth. They are automatically enrolled 
in our College Bound program and are eligible for additional supports 
along their educational pathway. A local nonprofit that provides some 
of these supports has too many frustrating stories to tell about foster 
youth required to obtain dependency court orders and tax transcripts to 
get financial aid. Obviously, this is a world of government process and 
forms that would befuddle even highly educated adults, let alone some 
of our most fragile youth seeking to continue their education.

    One of our high school partners in GEAR UP and the 12th Year 
Campaign shared a story about how many challenging steps can exist in 
the verification process. A student was selected for verification. High 
school staff helped him obtain the requested tax transcript thinking 
that would resolve the issue. Weeks later an additional verification 
request asked for the student's W-2 from work at a fast food restaurant 
two years earlier. Like most high school students (and probably many 
Americans), he had no idea how to go about getting a tax form from a 
former employer and didn't understand that he hadn't worked for the 
nationally recognized chain but for another corporation that was the 
franchisee. High school staff helped him navigate to the franchisee's 
corporate office to get his W-2. There were additional requests for 
more information even up until a few days before he was able to enroll 
in a community college with a financial aid package.

    WSAC is committed to better understanding and helping to resolve 
the challenges caused by the verification process. However, we do all 
of this work on the College Bound Scholarship and 12th Year Campaign 
with just a few staff positions. The budget pending in our state 
legislature does add an additional position to our work. But it is not 
a fair partnership to ask states, high schools or colleges to 
compensate for what is clearly a broken and counterproductive 
verification process.

    Making the most of our investments to support low income students

    Many state and Federal programs that do not have the word 
``education'' anywhere in their title can support educational success 
among the low-income populations they serve. Better alignment across 
all these programs with state and Federal financial aid programs can 
significantly help students meet the total cost of enrolling in higher 
education programs. Washington already uses the free and reduced price 
lunch system to support a more student-friendly enrollment process in 
our College Bound program.

    WSAC is working with our sister state agencies that manage the 
Washington Medicaid, WIC, SNAP, TANF and childcare subsidy programs to 
understand how we can collaborate on our shared goals of success for 
the state residents we all serve. The issues under discussion are broad 
ranging but do include cooperating at a program operation level to 
help, for example, both young people and adults in Medicaid households 
to maximize state and Federal financial aid for college. We are also 
building on an existing body of work at many campuses to maximize 
student enrollment in all public support programs for which they are 
eligible. We believe that states can build coordinated systems to do 
this rather than rely on random individual supports.

    Americans don't live their lives in the silos of government 
programs. We can, and must, make the different investments work 
together to help all Americans succeed in the educational pathways that 
help them achieve their dreams.

    Closing

    Washington is an active partner with the Federal Government in both 
the money and the work that needed to support educational success for 
all Americans. We in Washington know that we have a lot to do to make 
our state a fully supportive environment for all students. We know we 
have to invest more and work harder and smarter. And, respectfully, so 
does the Federal Government.

    Our state has adopted an ambitious goal that 70 percent of 
Washington adults in the first half of their career (25-44 years old) 
should have a post-secondary credential. This would be a big step up 
but it would create enormous benefit for the people, families, 
employers, communities and regions of our state. Many states across the 
country have adopted similar ambitious goals.

    In order to achieve these goals, we must overcome many obstacles 
that stand in the way of access and success to higher education. These 
obstacles are particularly severe for low-income families, students of 
color, first generation students and most adults seeking their first 
postsecondary credential. We will not achieve our goals without 
significantly increasing educational attainment among lower income 
students of all ages, including working adults.

    Too often, the higher education debate focuses on tuition and fees 
that are the nominal price tag for college. The cost of going to 
college is much more than that. College takes time. For most Americans, 
that is time taken away from their ability to contribute to their 
household's basic needs for a place to live, food, transportation and 
more. We will not significantly increase educational success without 
understanding and meeting those essential needs.

    Both states and the Federal Government need bold solutions and new 
investments to put college within reach for working families. As the 
Committee works on the historic reauthorization of the Higher Education 
Act, I would recommend four specific proposals for your consideration:

        1. Simplifying the FAFSA and verification process by 
        transferring tax information more seamlessly for applicants

        2. Connecting students with all of the sources of financial 
        support that might be available to support their financial 
        needs, including means-tested benefit programs available at the 
        Federal, state, and local levels

        3. Increasing the overall investment in Federal financial aid 
        like Pell, SEOG, and Work-Study, and making it easier for 
        students to access these programs

        4. Leveraging the Federal investment to get states to provide 
        additional support for higher education and conduct additional 
        outreach and support of FAFSA completion through a state-
        Federal partnership.

    Washington state will do its part to help address the needs 
students face, but it needs a partner here in the other Washington.
                                 ______
                                 
                [summary statement of michael p. meotti]
    Building a stronger state-Federal partnership

    Washington is a full financial partner with the Federal Government 
as measured by total spending on need-based grants to state residents 
enrolled in public and private institutions. Washington ranks second 
among all states on undergraduate need-based aid per FTE student.

    Partnering in the work to support access to financial aid

    Washington invests in an extensive body of work to support access 
to financial aid. Historically most of our work focuses on supporting 
high school students. We are launching a new initiative to help 
returning adults.

    Our College Bound Scholarship (CBS) engages 7th and 8th grade 
students in a simplified enrollment process based on forms pre-
populated with data provided by school districts. The 12th Year 
Campaign provides technical assistance and outreach materials to 197 
partners (165 high schools and 27 community organizations). Senator 
Murray recorded a Public Service Announcement urging students to apply 
for financial aid.

    Struggling with the added complexity of the FAFSA verification 
process

    Federal data shows 31 percent of FAFSA applications in Washington 
filed in 2017-2018 were selected for verification. The data system 
won't allow us to determine how many of these applicants never received 
financial aid, but the stories from our frontline partners paint a 
horror story. The verification system is very difficult for members of 
tribal nations, foster youth and others.

    Making the most of our investments to support low income students

    WSAC is working with our sister state agencies that manage the 
Washington Medicaid, WIC, SNAP, TANF and childcare subsidy programs to 
understand how we can collaborate on our shared goals of success for 
the state residents we all serve.

    Closing

    We recommend four specific proposals for your consideration:

        1. Simplifying the FAFSA and verification process by 
        transferring tax information more seamlessly for applicants

        2. Connecting students with all of the sources of financial 
        support that might be available to support their financial 
        needs

        3. Increasing the overall investment in Federal financial aid 
        like Pell, SEOG, and Work-Study, and making it easier for 
        students to access these programs

        4. Leveraging the Federal investment to get states to provide 
        additional support for higher education and conduct additional 
        outreach and support of FAFSA completion.
                                 ______
                                 
    The Chairman. Thank you, Mr. Meotti, and thank you for 
flying all the way across the country to be with us today.
    Dr. Wiederspan, welcome.

STATEMENT OF MARK WIEDERSPAN, EXECUTIVE RESEARCH OFFICER, IOWA 
                 STUDENT AID, DES MOINES, IOWA

    Dr. Wiederspan. Chairman Alexander, Senator Baldwin and 
Members of the Committee, we have a motto at Iowa College Aid, 
and it is that college changes everything. And indeed, it does.
    Individuals who obtain a post-secondary degree not only 
earn more over their lifetime, but also obtain a range of non-
monetary benefits, such as lower unemployment rates, increased 
life expectancy, and improved quality of life for their 
children. Any individual should have the same opportunity to 
obtain these benefits. However, trends in college enrollment 
indicate that the likelihood of attending college depends on 
one's family income, and race and ethnicity. One of the 
explanations for these gaps relates to the complexities in our 
financial aid system, which creates a significant barrier to 
college enrollment.
    Over the past decade, there have been significant efforts 
to simplify the FAFSA, and I applaud those who have made those 
changes possible. However, the application is still long and 
contains many questions, which are still complicated to answer. 
Students are still not aware that after completing that, how 
information they provide calculates in the EFC, nor how it 
determines their financial aid eligibility. Even after 
completing the FAFSA, some students may be required to provide 
additional information because of verification. Roughly 30 
percent of FAFSA filers are selected for verification annually. 
Unfortunately, there is no public information available on the 
Department of Education's criteria for determining who is 
selected for verification.
    Through my research, I have found that verification is 
targeting the individuals who need financial aid the most. For 
2017-18 academic year in Iowa, roughly 55 percent of Pell 
eligible students were selected for verification in comparison 
to 6 percent of non-Pell eligible students. Students selected 
for verification many times are unaware of their selection or 
lack the knowledge to complete it. If a student can complete 
the paperwork, the student may be delayed in receiving their 
financial aid because of the institution's time spent 
completing the process. Because selection for verification is 
highly associated with Pell eligibility, institutions that have 
a high share of Pell students carry a heavier burden in 
verifying students. Using Iowa FAFSA filers as an example, for 
2017-18, 47 percent of filers intending to attend a community 
college were selected for verification, compared to 
approximately 17 percent at a public four-year institution. 
Verification is not only a burden, but it creates an enrollment 
barrier.
    I have analyzed the extent to which selection for 
verification impacts students likelihood to enroll in college. 
Through my examination, I have found that Pell eligible 
students selected for verification are significantly less 
likely to enroll than their Pell eligible counterparts who are 
not selected for verification. And the impact is greater at 
community college, a sector that has a large Pell population. 
Creating a streamline FASFA that is easy for students to 
understand is possible. Research, such as my own, has 
demonstrated that EFC and Pell eligibility can be approximated 
with a high level of precision with only a handful of elements 
that are gathered from their current income tax form. But the 
success of simplification depends on students' ability to use 
DRT. In recent years, some individuals were not able to use DRT 
because of outages or the IRS suspending its use, which 
occurred in 2017.
    Based on the information I have presented in my testimony, 
my general recommendation for FAFSA and verification 
simplification is this. One, determine EFC and Pell eligibility 
and awards on a limited number of questions, and use the data 
elements that are available from the IRS as needed. Two, create 
and support more data transfer between the IRS and the U.S. 
Department of Education to the DRT transfer. The exchange of 
more information between the two agencies can help alleviate 
the need for verification. This also means expansion of DRT to 
institutions and all students. For example, non-tax filers 
currently must receive a letter confirming their non tax filing 
status, which then they need to provide to their institution. A 
process could be developed where this letter is automatically 
pushed to institutions rather than having students download the 
letter, sign it, and then submit it to their institutions.
    Three, work with states to determine which non-financial 
data elements on the FASFA are needed to determine state aid 
eligibility. In my written testimony, I have provided you with 
a list and an example of some of the non-financial elements 
that my state, at a minimum, would need to determine the state 
aid eligibility. Four, reinstate the 30 percent verification 
cap at institutions, which would reduce the verification burden 
for institutions that have a high number of Pell eligible 
students. And five, so long as the CPS is selecting systems to 
be verified, they should make the selection process more 
transparent by providing students with more information on why 
they were selected for verification and make the criteria or 
formula to determine verification known.
    My written testimony has more details. Thank you for 
providing me the opportunity to appear before you today. I look 
forward to any questions that you may have.
    [The prepared statement of Dr. Wiederspan follows:]
                 prepared statement of mark wiederspan
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:

    My name is Mark Wiederspan, Executive Research Director for the 
Iowa College Student Aid Commission (Iowa College Aid), which is a 
state agency dedicated to increasing college access, success, and 
completion in Iowa. Prior to and during my tenure at Iowa College Aid, 
I conducted and published several research studies examining the 
feasibility of simplifying the Free Application for Federal Student Aid 
(FAFSA) and the impact of verification on college enrollment for Iowa 
FAFSA filers. Thank you for providing me the opportunity to testify on 
both of these topics and to suggest possible reforms that could enhance 
our current financial aid system.
    Importance of Going to College and Significance of the College 
                          Enrollment Problems
    Higher education has long been recognized as providing individuals 
with a diverse range of economic and social benefits. In 2015, full-
time workers with an Associate's degree earned roughly $10,000 more 
annually than workers with a high school diploma (Ma, Pender, and 
Welch, 2016). The benefits are even larger for Bachelor's degree 
recipients, as they experience an earnings gain of roughly $24,600 
annually. In addition to these monetary benefits, individuals with a 
postsecondary degree also obtain a range of non-monetary benefits in 
the form of lower unemployment rates, improved health, increased life 
expectancy, and an improved quality of life for their children (Ma, 
Pender, and Welch, 2016).

    Any individual, regardless of income and race, should have the same 
opportunity to obtain these benefits. However, national trends in 
college enrollment indicate that the likelihood of attending college 
varies according to one's family income and race/ethnicity, with a 
higher percentage of higher-income and white students attending college 
than lower-income students and students of color (Bailey & Dynarski, 
2011; NCES, 2018). In my state of Iowa, for the graduating high school 
classes between 2014 and 2016, there was a 27 percentage point 
difference in college enrollment between non-recipients of free and 
reduced price lunch (77 percent) and recipients (50 percent) (IDE, 
2018).Regarding race and ethnicity, roughly 71 percent of whites 
attended college right after high school graduation, compared with 55 
and 58 percent for Latino and African American students, respectively.

    What explains these enrollment gaps? Broadly speaking, researchers 
have put forth several explanations. Some suggest that as a result of 
inequality in access to resources, some students are less academically 
prepared for college-level coursework, which affects their access to 
and success in college (Bettinger & Long, 2009; Ellwood & Kane, 2000; 
Greene & Foster, 2003). Others suggest the increasing inability of 
students to finance their college education due to rising tuition 
prices, a decrease in the purchasing power and availability of 
financial aid, and rising unmet financial need are key factors (College 
Board, 2018a, 2018b; Goldrick-Rab, 2016; Hemelt & Marcotte, 2011). A 
third explanation is that the complexities in our financial aid system, 
coupled with students' information constraints and lack of financial 
aid knowledge to overcome these complexities, creates a significant 
barrier to college enrollment. This last explanation bears further 
elaboration and is the focus of my testimony today.
             Completing the FAFSA is Confusing and Complex
    In its current form, the FAFSA is more than five pages long and 
contains over 100 questions, longer than the 1040A or the 1040EZ. To 
complete the form, students need access to paperwork pertaining to 
their income and savings, parents' income and savings (if a dependent), 
their receipt of government assistance programs, and their amounts of 
untaxed income and other liabilities (such as education tax credits and 
child support paid or received). Even after they fill out the FAFSA, 
students are not provided clear information regarding how the 
information they submitted determines their financial aid eligibility.

    The FAFSA complexity and its impact on college enrollment can be 
illustrated through a well-known and frequently cited randomly 
controlled experiment (Bettinger, et al., 2012). Students from low-
income families who visited tax-preparation centers and received 
personal assistance in completing the FAFSA (the intervention) were 
significantly more likely to enroll in college and obtain a Pell Grant 
than students from families who did not receive such service.

    The complexity of the FAFSA makes it hard to reach students who 
need it the most. Many students do not have the resources or knowledge 
to complete the form. As Heroff and Feeney (2010) report, ``low-income 
students and those who are first generation or who have lower access to 
guidance counselors are significantly less likely to complete the FAFSA 
on time and therefore access important financial aid'' (p. 19).

    Over the past decade there have been significant efforts to 
simplify the FAFSA. We have seen the elimination of questions, 
introduction of ``skip-logic,'' the ability to automatically import tax 
information from the IRS through the Data Retrieval Tool (DRT), and the 
use of prior-prior income tax information, which allows students to 
apply months earlier than they could before.

    I applaud those who made these changes possible, as they are a step 
in the right direction. However, the application is still long and 
contains complicated questions (such as untaxed income, value of 
investments, and the amount of child support paid or received). 
Students are still not aware of how the information they provide 
calculates an Expected Family Contribution (EFC), nor how it determines 
their financial aid eligibility. Students do have the opportunity to 
collect necessary documents and to complete the FAFSA on the Web 
Worksheet prior to beginning the online form. This allows students to 
know what is going to be on the application. But it remains uncertain 
whether this proactive step reduces the time, confusion, and overall 
complexity of the form.
      FAFSA Verification is a Burden for Students and Institutions
    Even after completing the FAFSA, students wanting to go to college 
can still face barriers. Some students may be required to provide 
additional information because of verification, a process in which 
postsecondary institutions need to verify that the information students 
have provided on the FAFSA is correct.

    Roughly 30 percent of FAFSA filers are selected for verification 
annually. Unfortunately, there is no public information available on 
the U.S. Department of Education's formula or criteria for determining 
who is selected for verification. Due to Iowa College Aid's 
administration of state-funded scholarship and grant programs, our 
agency receives Institutional Student Information Records (ISIR) from 
the U.S. Department of Education's (ED) Central Processing System (CPS) 
for all Iowans who file the FAFSA. With this data, I am able to provide 
some insight into who is more likely to be selected for verification.

    Unfortunately, the results demonstrate that verification is 
targeting the poorest individuals who need financial aid the most. For 
the 2017-18 academic year, approximately 33 percent of all Iowa filers 
were selected for verification. However, being Pell-eligible 
significantly increases a student's likelihood of being selected, as 
roughly 55 percent of Pell-eligible students were selected for 
verification, in comparison to the 6 percent of non-Pell-eligible 
students. I find that this gap in selection between Pell-eligible and 
non-eligible students is consistent with previous FAFSA submission 
years and mirrors findings of previous studies examining verification 
(Cochrane, et al., 2010; Warick, 2018). Because of this sharp 
difference in verification selection, I will focus the remainder of my 
discussion on Pell-eligible students.

    Among Pell-eligible filers in Iowa, there is substantial variation 
in who is selected for verification:

        <bullet>  Filers who successfully used the IRS Data Retrieval 
        Tool (DRT) to file their FAFSA were less likely to be selected 
        for verification than filers who did not or were not eligible 
        to use DRT (31 percent vs 64 percent).

        <bullet>  Non-tax filers were more likely to be selected than 
        tax filers (62 percent vs 53 percent).

        <bullet>  Filers who were not eligible for an automatic zero 
        EFC or whose EFC was calculated with the full needs test were 
        more likely to be selected than their auto-zero or simplified 
        needs counterparts. \1\
---------------------------------------------------------------------------
    \1\  A simplified needs test formula considers asset information, 
whereas the full needs test does not.

        <bullet>  Independent students were more likely to be selected 
        for verification than dependent students (65 percent vs 40 
        percent). This selection difference is attributed to 
        independent students being less likely to use the DRT and more 
---------------------------------------------------------------------------
        likely to be non-tax filers.

    Because the Pell Grant is the largest federally funded financial 
aid program, verification is done to ensure that Pell awards are given 
to students who have the greatest financial need. However, the process 
of having students collect additional information to verify that their 
FAFSA is correct can be a burden and time-consuming, both for the 
student and the institution performing the verification.

    Students selected for verification many times are unaware of their 
selection or lack information needed to complete the process (Davidson, 
2015; Cochrane, et al., 2010). If a student can submit the necessary 
verification paperwork, the student may be delayed in receiving their 
financial aid because of the institution's time spent completing the 
verification process, which can take over a week (MacCallum, 2008).

    Starting in 2012-13, institutions were no longer required to verify 
30 percent of their FAFSA filers; selection is now determined through 
the CPS. In eliminating this 30 percent cap, institutions are now 
required to complete the verification process for every selected 
student. This means that the distribution of selected students can vary 
across institutions. Because selection for verification is highly 
associated with Pell eligibility, institutions that have a high share 
of Pell students carry a heavier burden in verifying students than 
institutions with a small share of Pell students. Using Iowa FAFSA 
filers as an example, 47 percent of students intending to attend a 
community college were selected for verification during the 2017-18 
academic year, compared to the approximately 17 percent and 25 percent 
at 4-year public and private non-profit colleges, respectively.

    Verification is not only a burden but also creates an enrollment 
barrier (Wiederspan, 2019). In my most recent research, I analyzed the 
extent to which selection for FAFSA verification impacts students' 
likelihood to enroll in college. \2\ Through my examination of all 
Iowans who filed the FAFSA for the first time from the 2012-13 to the 
2016-17 academic year and were Pell-eligible, I found:
---------------------------------------------------------------------------
    \2\  A copy of this paper is available at: https://
www.iowacollegeaid.gov/sites/default/files/
Impact_of_Verification_on_Iowa_FAFSA_Filers.pdf. Appendix is available 
at https://www.iowacollegeaid.gov/sites/default/files/
Impact_of_Verification_on_Iowa_FAFSA_Filers_APPENDIX.pdf.

        <bullet>  Pell-eligible students selected for verification were 
        roughly 2.3 percentage points less likely to enroll than their 
        Pell-eligible counterparts who were not selected for 
---------------------------------------------------------------------------
        verification.

        <bullet>  The impact of verification is greater at community 
        colleges, the sector with the largest Pell-eligible population 
        and the largest share of students selected for verification in 
        the state. Pell-eligible students who indicated a community 
        college on their FAFSA and were selected for verification were 
        3 percentage points less likely to enroll than students who 
        indicated a community college but were not selected.

        <bullet>  Students who received an automatic zero EFC or had an 
        EFC calculated under the simplified needs test were less likely 
        to be selected for verification. However, students who were 
        selected for verification and received an automatic zero EFC or 
        an EFC that was calculated under the simplified needs test were 
        significantly less likely to enroll than their nonverification, 
        full needs test counterparts. The difference in enrollment 
        rates between these two groups ranged from 4 percentage points 
        at public 4-year institutions to roughly 7 percentage points at 
        community colleges.

        <bullet>  Among the Pell-eligible students who were selected 
        for verification and refiled their FAFSA, over 90 percent did 
        not experience a change in their Pell-eligibility status.

    Verification complexity is not limited to students and their 
families. Iowa provides FAFSA reports to all public high schools in the 
state, an initiative that Iowa College Aid oversees. Through these 
reports, school counselors can know which students have completed the 
FAFSA and identify which students have been selected for verification. 
While most counselors know what the FAFSA is, our agency has been 
fielding questions from school counselors about verification. Many 
school counselors are unfamiliar with verification and unsure of the 
assistance they can provide students. Through the development of 
reference materials and conference phone calls, Iowa College Aid is 
doing its best to advise these school counselors on how they can help 
students.

                     Feasibility of Simplification
    Creating a streamlined FAFSA that is easier for students to 
understand is possible. With my co-authors Dr. Susan Dynarski at the 
University of Michigan and Dr. Judith Scott-Clayton at Columbia 
University, my research has demonstrated that most of the financial 
information collected on the FAFSA does little to determine aid 
eligibility (Dynarski & Wiederspan, 2012, 2015; Dynarski, Scott-
Clayton, & Wiederspan, 2013). EFC and Pell eligibility can be 
approximated with a high level of precision with only a handful of 
elements: adjusted gross income (of parents and students), taxes paid, 
state of residence, family size, parents' and independent students' 
marital status, type of income tax form file, and the number of family 
members in college. Most of these elements can be gathered from the 
current income tax form.

    In one of our calculated simulations, where we used only a handful 
of these elements with prior-prior income tax return information, we 
found that almost 70 percent of applicants experience no change in 
their Pell eligibility (Dynarski & Wiederspan, 2012). In terms of the 
actual award they could receive, the simulated change in Pell amounts 
was less than $500 for 78 percent of applicants.

    Additional research examining FAFSA simplification has found 
consistent results: even with a reduced number of questions, the 
application can still target those whom financial aid is intended to 
serve (Baum, et al., 2012; Dynarski & Scott-Clayton, 2007; Kelchen & 
Jones, 2015; Reuben, Gault, & Baum, 2015).

    The success of simplification also depends on the students' ability 
to use the DRT. Being able to automatically import tax information from 
the IRS to the FAFSA creates a less burdensome process in gathering the 
necessary tax information and should be able to reduce time for 
completing the form. However, DRT can only succeed if there is adequate 
support for this function. In recent years, some individuals were not 
able to use DRT because of outages or the IRS suspending its use, which 
occurred in 2017.
                   Addressing Simplification Concerns
    Should there be a change to a more simplified form with fewer 
questions, some worry states will lack the detailed information they 
need to administer their own financial aid programs. Previous research 
from Pingel (2017) found most states use three of five major FAFSA 
elements to administer state aid programs. These five elements are 
demographic information, EFC, other income or asset information, date 
the application was filed, and institutions listed on the form, 
although the specific elements used varied across states.

    Many states, like Iowa, rely on the EFC to determine financial aid 
eligibility. We have a separate application to assist students in 
identifying their eligibility for specific Iowa aid programs, but this 
application does not replace the FAFSA. As I discussed previously, 
results demonstrated that an EFC calculated with a simplified form can 
be closely approximated to an EFC under the full FAFSA. Given this, 
many states should be able to target their aid programs appropriately. 
Previous research from Baum and colleagues (2012) found that minor 
changes in EFC have little to no effect on the distribution of state 
aid.

    State aid administrators will likely be more concerned with the 
reduction of non-financial questions in the application, as some of the 
demographic questions help to identify state aid eligibility. Should a 
more simplified FAFSA be used, the U.S. Department of Education will 
need to work with states to determine the essential non-financial 
elements. For Iowa, we have determined that, at a minimum, we would 
need elements that determine (1) citizenship status; (2) length of 
residency in the state; (3) grade level; (4) degree or program being 
pursued; and (5) the list of schools that students report to receive 
their FAFSA information.
                       Concluding Recommendations
    Based on the information presented in this testimony, my general 
recommendations for FAFSA and verification simplification are to:

        <bullet>  Determine Pell eligibility and awards on a limited 
        number of questions and use the data elements that are 
        available from the IRS as needed.

        <bullet>  Create and support more data transfer between the IRS 
        and U.S. Department of Education through the DRT transfer. The 
        exchange of more information between the two agencies can help 
        alleviate the need for verification.

        <bullet>  Expand the use of the DRT transfer to allow 
        institutions and individuals, regardless of their tax filing 
        status, to utilize the tool. For example, non-tax filers 
        currently must receive a letter confirming their non-tax filing 
        status, which they then need to provide to their institution. A 
        process could be developed where this letter is automatically 
        pushed to institutions rather than having students download the 
        letter, sign it, and then submit it to their institution.

        <bullet>  Work with states to determine which FAFSA non-
        financial data elements are needed to determine state aid 
        eligibility and eliminate nonessential elements.

        <bullet>  Reinstate the 30 percent verification cap at 
        institutions, which would reduce the verification burden for 
        institutions with a high number of Pell-eligible students.

        <bullet>  As long as CPS selects students to be verified, they 
        should make the selection process more transparent by providing 
        students with more information on why they were selected for 
        verification and making the criteria or formula determining 
        selection known.

    Thank you again for providing me this opportunity to speak with you 
today. I look forward to your questions.
                               References
    Baum, S., Little, K., Ma, J., & Sturtevant, A. (2012). Simplifying 
student aid: What it would mean for states. New York, NY: College 
Board.

    Bettinger, E., & Long, B. (2009). Addressing the needs of under-
prepared college students: Does college remediation work? Journal of 
Human Resources, 44(3), 736-771.

    Bettinger, E., Long, B., Oreopoulos, P., & Sanbonmatsu, L. (2012). 
The role of application assistance and information in college 
decisions: Results from the H&R Block FAFSA Experiment. The Quarterly 
Journal of Economics, 127(3), 1205-1242.

    Bailey, M., & Dynarski, S. (2011). Inequality in postsecondary 
education. In G.J. Duncan & R.J. Murnane (eds.), Whither opportunity: 
Rising inequality, schools, and children's life changes (pp. 117-132). 
New York, NY: Russell Sage.

    College Board. (2018a). Trends in college pricing: 2018. New York, 
NY: College Board.

    College Board. (2018b). Trends in student aid: 2018. New York, NY: 
College Board.

    Cochrane, D., LaManque, A., & Szabo-Kubitz, L. (2010). After the 
FAFSA: How red tape can prevent eligible students from receiving 
financial aid. Oakland, CA: The Institute for College Access & Success.

    Davidson, J.C. (2015). Improving the financial aid process for 
community college students: A literature review of FAFSA 
simplification, information, and verification. Community College 
Journal of Research and Practice, 39, 397-408.

    Dynarski, S., & Scott-Clayton, J. (2007). Pell grants on a 
postcard: A proposal for simple and predictable Federal student aid. 
(Discussion Paper 2007-01). Washington, DC: Brookings Institution, The 
Hamilton Project.

    Dynarski, S., Scott-Clayton, J., & Wiederspan, M. (2013). 
Simplifying tax incentives and aid for college: Progress and prospects. 
Tax Policy and the Economy, 27(1), 161-201.

    Dynarski, S., & Wiederspan, M. (2012). Student aid simplification: 
Looking back and looking ahead. National Tax Journal, 65(1), 211-234.

    Dynarski, S., & Wiederspan, M. (2015). Revisiting FAFSA 
simplification: Expanding access to the IRS data retrieval tool. (EPI 
Policy Brief #1). Ann Arbor, MI: Education Policy Initiative. Retrieved 
from http://www.edpolicy.umich.edu/files/brief-1-revisiting-fafsa.pdf.

    Ellwood, D.T., & Kane, T. (2000). Who is getting a college 
education? Family background and the growing gaps in enrollment. In S. 
Danzinger & J. Waldfogel (Eds.), Securing the future: Investing in 
children from birth to college (pp. 283-324). New York, NY: Russell 
Sage Foundation.

    Greene, J., & Foster, G. (2003). Public high school graduation and 
college readiness rates in the United States. Education Working Paper 
No. 3. New York, NY: Manhattan Institute, Center for Civic Information.

    Goldrick-Rab, S. (2016). Paying the price. Chicago, IL: The 
University of Chicago Press.

    Heller, D. (1997). Student price response in higher education: An 
update to Leslie and Brinkman. The Journal of Higher Education, 68(6), 
624-659.

    Hemelt, S., and Marcotte, D., (2011) The impact of tuition 
increases on enrollment at public colleges and universities. 
Educational Evaluation and Policy Analysis, 33(4), 435-457.

    Heroff, J., & Feeney, M. (2010). Barriers to need-based financial 
aid: The relationships between income, geography, social capital and 
the FAFSA. SSN eLibrary. Retrieved from https://papers.ssrn.com/sol3/
papers.cfm?abstract_id=1639612.

    Iowa Department of Education (IDE). (2018). State of Iowa--
Postsecondary readiness reports: Summary 2018. Retrieved from https://
reports.educateiowa.gov/PostSecondaryReadiness/Content/pdf/
PPR_2018_Summary.pdf.

    Kelchen, R., & Jones, G. (2015). A simulation of Pell grant awards 
using prior prior year financial data. Journal of Education Finance, 
40(3), 253-272.

    Kim, J. (2010). The effect of prices on postsecondary education: An 
update to Heller. Higher Education in Review, 7, 23-46.

    Ma, J., Pender, M., and Welch, M. (2016). Education pays 2016: The 
benefits of higher education for individuals and society. Washington, 
DC: College Board.

    MacCallum, M. (2008). Effect of financial aid processing policies 
on student enrollment, retention, and success. Journal of Student 
Financial Aid, 37(2), 17-32.

    National Center for Education Statistics (NCES). (2018). The 
condition of education: 2018. Washington, DC: U.S. Department of 
Education. Retrieved from https://nces.ed.gov/pubs2018/2018144.pdf.

    Pingel, S. (2017). Simplification may not be so simple: Gauging 
state alignment with the FAFSA. Denver, CO: Education Commission of the 
States. Retrieved from https://www.ecs.org/wp-content/uploads/
Simplification-May-Not-Be-So-Simple-Gauging-state-alignment-with-the-
FAFSA.pdf.

    Reuben, K., Gault, S., & Baum, S. (2015). Simplifying Federal 
student aid: How do the plans stack up? Washington, DC: The Urban 
Institute. Retrieved from https://www.urban.org/research/publication/
simplifying-Federal-student-aid-how-do-plans-stack/view/full_report.

    Warick, C. (2018). FAFSA verification: Good government or red tape? 
Washington, DC: National College Access Network.

    Wiederspan, M. (2019). Impact of verification on Iowa FAFSA filers. 
Des Moines, IA: Iowa College Aid. Retrieved at https://
www.iowacollegeaid.gov/sites/default/files/
Impact_of_Verification_on_Iowa_FAFSA_Fi lers.pdf.
                                 ______
                                 
                 [summary statement of mark wiederspan]
    Importance of Going to College and Significance of the College 
                          Enrollment Problems

        <bullet>  Higher education offers individuals a range of 
        economic and social benefits.

        <bullet>  There are significant income and race/ethnicity gaps 
        in who is attending college.

        <bullet>  Many students are deterred from going to college 
        because of the complexities and burdens in our financial aid 
        system.
             Completing the FAFSA is Confusing and Complex
        <bullet>  Despite recent changes to the FAFSA application 
        process, the form is still longer and more burdensome than 
        Federal income tax forms.

        <bullet>  Many low-income students do not have the resources 
        nor the knowledge to complete the form.

        <bullet>  Studies have demonstrated that the FAFSA is a barrier 
        to college and undermines the effectiveness of financial aid.
      FAFSA Verification is a Burden for Students and Institutions
        <bullet>  Even after completing the FAFSA, students can still 
        face barriers because of verification.

        <bullet>  Research demonstrates that verification is targeting 
        the poorest individuals who need financial aid the most.

        <bullet>  Institutions with a high share of Pell-eligible 
        students carry a heavier burden in verifying students than 
        institutions with a smaller share of Pell-eligible students.

        <bullet>  Filers selected for verification are significantly 
        less likely to enroll in college than their non-verification 
        counterparts.
                     Feasibility of Simplification
        <bullet>  Research has demonstrated that EFC and Pell 
        eligibility can be approximated to a high degree with only a 
        handful of questions.

        <bullet>  The use of DRT holds promise in making the FAFSA 
        easier to complete, but DRT success depends on the adequate 
        support for this function.
                       Concluding Recommendations
        <bullet>  Determine Pell eligibility and awards from a limited 
        number of questions and use the data elements that are 
        available from the IRS as needed.

        <bullet>  Create and support more data transfer between the IRS 
        and U.S. Department of Education through the DRT transfer. The 
        exchange of more information between the two agencies can help 
        alleviate the need for verification.

        <bullet>  Expand the use of the DRT transfer to allow 
        institutions and individuals, regardless of their tax filing 
        status, to utilize the tool. For example, non-tax filers 
        currently must receive a letter confirming their non-tax filing 
        status, which they then need to provide to their institution. A 
        process could be developed where this letter is automatically 
        pushed to institutions rather than having students download the 
        letter, sign it, and then submit it to their institution.

        <bullet>  Work with states to determine which FAFSA non-
        financial data elements are needed to determine state aid 
        eligibility and eliminate nonessential elements.

        <bullet>  Reinstate the 30 percent verification cap at 
        institutions, which would reduce the verification burden for 
        institutions that have a high number of Pell-eligible students.
                                 ______
                                 
    The Chairman. Thank you, Dr. Wiederspan.
    Dr. Scott Taylor, welcome.

   STATEMENT OF MICHELE SCOTT TAYLOR, CHIEF PROGRAM OFFICER, 
              COLLEGE NOW CLEVELAND, CLEVELAND, OH

    Dr. Scott Taylor. Good morning, Chairman Alexander, Senator 
Baldwin, and Members of this distinguished Committee. Thank you 
for the opportunity to provide testimony on the barriers to 
accessing financial aid as students and adults pursue post-
secondary opportunities.
    College costs and issues of affordability are significant 
challenges facing young people and adults. The reauthorization 
of The Higher Education Act can address key policy levers 
critical to ensuring that more low-income students, and 
increasingly middle-income students, can afford higher 
education. In Ohio, these challenges are specially pronounced 
due to the state's higher-than-average cost of attendance. To 
enroll in post-secondary, most Ohioans must borrow loans or 
qualify for grants. These resources in addition to even 
institutional merit aid and scholarships can only be accessed 
through the completion of the FAFSA. Unfortunately, both the 
real and perceived complexity of the FASFA form, often followed 
by an unwieldy verification process, serves as a hindrance to 
college access for the students who need it the most, including 
our homeless and at-risk for homeless youth, foster youth, and 
young adults aging out of the foster care system.
    Each year only 45 percent of low-income students complete 
the FASFA. Of the Pell eligible students, 25 percent are lost 
in the verification process and ultimately do not enroll. So, 
simplifying the FAFSA form and reducing or redesigning the 
verification process is needed, but it is not enough. We must 
continue to support comprehensive strategies that make post-
secondary more accessible and affordable. Federally supported 
programs like GEAR UP and TRIO, implement and iterate on best 
practices for promoting early college access and awareness 
about college affordability. In addition, we must continue to 
increase the Federal investment in the Pell Grant, which now 
only covers about 29 percent of the total cost of attendance at 
a four-year institution as compared to 79 percent back in 1975. 
We also encourage the publishing of more data by the Federal 
Government, disaggregated by race and ethnicity to fully 
understand who is using existing Federal programs and who is 
being left behind. This helps organizations like College Now 
ensure we are not exacerbating already whitening equity gaps.
    I am the Chief Program Officer at College Now Greater 
Cleveland where our mission is to increase educational 
attainment. It is the first of its kind in the Nation since our 
inception in 1967. We have become the largest college access 
provider in Ohio, and we remain one of the largest in the 
Nation, currently serving 29,000 students. My role is to 
provide leadership for our programs and services, but in 
addition to providing direct service to high school and middle 
school students, I have spent much of my career working with 
adult learners and students on college campuses. For many 
students who I have personally supported, mentored, mothered, 
coached, and dragged across the finish line, as well as for 
thousands of students that College Now serves, I can assure you 
that getting to and through college is a full-time job just 
beyond being a college student. And I can say this because I 
have witnessed it, and I have lived it.
    Coming from a poor family where neither of my parents nor 
immediate family members had earned a college degree, I was not 
exposed to what David Connolly calls college knowledge and 
transition information. I had been told my entire life that if 
I did well in school, I can go to Harvard for free. Well I did 
do well in school, but it was in the context of a lower 
resourced public school system and an equally low-resourced 
family. I was not provided enough information about affording 
college or the process of getting there. So, I navigated my way 
through with enough Pell Grant dollars and work-study to allow 
me to focus on my academics. I did not have to worry so much 
about my school bill, however I did apply to become an RA so 
that I could get free room and board.
    This is the very reason why I work in higher education, and 
that is where College Now comes in, to help students like me 
and students like Brandon. So, Brandon, he is a student who is 
eager to raise himself and his family out of poverty. He 
attempts to complete the FAFSA himself and not with a College 
Now advisor, but we later find out that he answers numerous 
questions incorrectly, such as his family size, such as his 
dependency status. He thinks because he contributes to the 
family household by paying rent and buying groceries that he 
should be declared independent, but we all know that is not 
true when it comes to the FASFA. Subsequently, he finds out 
about these errors and he is selected for verification, but it 
is after importing scholarship deadlines have passed. So, we 
helped him correct the FAFSA. We gave him a College Now 
scholarship, but then we banned him from doing the FAFSA alone 
again in the future.
    [Laughter.]
    Dr. Scott Taylor. Did you know that low-income students are 
more likely to be selected for verification when they have a 
zero EFC? When selected for verification, a student should be 
able to provide proof of enrollment in other means-tested 
Government benefits such as SNAP, as discussed earlier. Not 
only that, if you are selected for verification at one 
institution, you are likely to be selected at multiple. But 
there is some hope. Just being here today and sharing this with 
you gives me hope.
    In places like Ohio and other states, we are setting 
aggressive goals for increasing educational attainment. We are 
implementing strategies to mitigate barriers, such as applying 
and competing for Federal grants to increase awareness and 
preparedness, raising millions of dollars in scholarship 
dollars, working with state agencies to increase support for 
post-secondary, and making community college free, such as in 
the great state of Tennessee, and many other activities. In 
Cleveland specifically, we were recently named a Say Yes to 
Education city, the final of four chapters to be established, 
raising enough scholarship funding for two generations of 
students.
    I would like to thank you for this opportunity. If there is 
any additional information I can provide, please ask. I am 
here, do not hesitate, and I am proud and honored to be of 
service to you and your deliberations today.
    Thank you.
    [The prepared statement of Dr. Scott Taylor follows:]
               prepared statement of michele scott taylor
    Chairman Alexander, Ranking Member Murray, and Members of the 
Committee:

    Thank you for the opportunity to provide testimony on the barriers 
that students face when accessing financial aid and, in turn, pursuing 
postsecondary opportunities.

    College costs and issues of affordability are a significant 
challenge facing our young people and our adults. The reauthorization 
of the Higher Education Act can address key policy levers critical to 
ensuring that more low-income students--and increasingly--those from 
middle-income backgrounds as well can afford higher education.

    In Ohio, these challenges are especially pronounced due to the 
state's higher than average ``cost of attendance.'' According to a 2016 
report by Vanderbilt University's Peabody College of Education and 
Human Development and the Penn State University Graduate School of 
Education, Ohio ranks 45th in the Nation in key college affordability 
metrics (Institute for Research on Higher Education, 2016). The average 
cost of attendance at a public college or university for an Ohio 
resident in 2018-19 was $26,275 (College Now, 2019). This compares to 
$20,770 nationally (Value Penguin, 2019). To afford to enroll in 
postsecondary, most Ohioans must borrow loans or qualify for grants. 
These resources, in addition to even institutional merit aid and 
scholarships, can be accessed only through successfully completing the 
Free Application for Federal Student Aid, or the FAFSA--an oft-used 
measure of need by financial aid providers and not just the Federal 
Government.

    Unfortunately, both the real and perceived complexity of the FAFSA 
form, often followed by an unwieldy verification process, serves as a 
hindrance to college access for the most in-need students, including 
our homeless and at-risk for homeless youth, foster youth, and young 
adults aging out of the foster care system. Each year, only 45 percent 
of low-income students complete the FAFSA, missing out on $24 billion 
in financial aid (Kofoed, 2016). Of those students who do successfully 
complete the form and are deemed Pell eligible, a total of 25 percent 
are lost to the verification process and do not enroll (Warick, 2018). 
It is critical that Congress continues to simplify the FAFSA and the 
resulting verification process so that more students, especially those 
who are first-generation and low-income, can actually pursue 
postsecondary education.

    Simplifying the Federal financial aid process is key; but not 
enough. We must think comprehensively about strategies for making 
postsecondary more accessible and affordable to vulnerable populations. 
Federally supported programs like GEAR-UP and TRiO (which includes 
Talent Search and Upward Bound, for example) implement and iterate on 
best practices for promoting much earlier college access and awareness 
about college affordability. In addition, we must continue to increase 
the Federal investment in the Pell grant--which now only covers 29 
percent of the total cost of attendance at a four-year school for an 
in-state student. This is a staggering decline from 1975, when the Pell 
grant covered 79 percent of the cost of attendance (Center on Budget & 
Policy Priorities, 2018). We also encourage the publishing of more data 
by the Federal Government--disaggregated by race and ethnicity to fully 
understand who is utilizing existing Federal programs--and who is being 
left behind. The availability of such information can help ensure 
nonprofits, like College Now, are serving the most in need and directly 
addressing known equity gaps.

    My name is Dr. Michele Scott Taylor, and I have served as the Chief 
Program Officer at College Now Greater Cleveland for more than eight 
years. In this role, I provide strategic leadership for the 
organization's comprehensive and diverse programmatic efforts, 
including school-based and community-based college access and success 
advising programs, as well as Federal programs such as Talent Search, 
GEAR UP, Upward Bound, and 21st Century Community Learning Centers. I 
work to ensure that our programs and services represent best practices 
and are on the cutting-edge of college access and success research, 
policy, and practice. In addition to providing direct service to high 
school students as recently as last night, I have just as much, or even 
more experience, working with adult learners and college students--
having served in diverse functional areas on college campuses including 
in student affairs, admissions and financial aid, and multicultural/
diversity affairs. I also teach in undergraduate and graduate programs. 
For many students whom I personally have supported, mentored, mothered, 
coached, and dragged across the finish line, as well as for thousands 
of students that College Now serves, getting to and through college is 
a full-time job beyond the academics. I can say this because I have 
witnessed it and lived it.

    Coming from a family with low-income, where neither of my parents 
nor immediate family members earned a degree, I was not exposed to what 
David Conley calls college knowledge and transition information. \1\ I 
had been told my entire life that if I did well in school, I can go to 
Harvard for free. While I did do well, it was within the context of a 
lower resourced public-school system and an equally low-resourced 
family! I was not provided enough information about affording college 
or the process of getting there! So, I navigated my way through with 
enough Pell grant dollars and aid to allow me to focus on my academics. 
I didn't consume myself with worry about my school bill (though I did 
become an RA to get free room and board!) This, in honesty, is the 
reason why I have committed my life to working in higher education, 
first on college campuses and now in that space where high school 
students and adults prepare for and pursue all kinds of postsecondary 
opportunities and become successful. That's where College Now comes in 
and helps students like Symone . . .
---------------------------------------------------------------------------
    \1\  C:-Users-mscotttaylor-OneDrive-College-Now-Greater-Cleveland-
4Keys-Conley.pdf.

    Symone is a second semester freshman at a large public institution 
currently struggling to pay her spring school bill. She filled out the 
FAFSA twice now and was not awarded the Pell grant either time, which 
is frustrating because her father is a construction worker and her 
mother is unemployed. On paper, it appears that her family has more 
money than they actually do. She has expressed that the government does 
not take into account the realities of her life (a common reality of 
the FAFSA). Her parents have other children and siblings of their own 
that they help out financially when it is necessary which, 
unfortunately, is quite often. Symone has applied to countless 
scholarships and received some of them, however, she was not eligible 
for countless others as a result of the FAFSA's calculation of her 
``need.'' Symone is mentally and emotionally stressed from trying to 
figure this out. We are working to keep her in school as long as 
---------------------------------------------------------------------------
possible and hopefully to degree completion.

    College Now's mission is to increase postsecondary educational 
attainment through college and career access advising, financial aid 
counseling, and scholarship and retention services. It was the first 
organization of its kind in the Nation--providing scholarships and 
college access services to support students going into higher 
education. Since our inception in 1967, we have become the largest 
college access provider in Ohio and remain one of the largest in the 
nation. College Now is a national leader, including serving as a 
founding member of the National College Access Network in 1995 and as a 
model for other organizations around the country.

    We assist over 29,000 individuals--middle and high school students 
as well as adult learners--helping them pursue their dreams of going to 
and succeeding in some form of education beyond high school. Many of 
our students are from low-income families and are first-generation 
college goers. We provide important services to adults pursing higher 
education for the first time, attempting to go back and finish, or 
seeking to retool their skills in light of rapid changes in the world 
of work. For us, serving adults is critical to the success of 
developing our region's talent and closing our existing skills gap. As 
in many parts of the country, there are simply not enough 18-year-olds 
graduating from high school and heading to postsecondary educations to 
meet current and projected employer demands.

    By 2025, 65 percent of jobs will require some postsecondary 
degrees, but today only 44 percent of Ohio working-age adults have any 
education or training beyond a high school diploma. In Northeast Ohio 
alone, there are approximately 500,000 people who have some college but 
no degree. In Cleveland, educational attainment is just ridiculous at 
only 27 percent. Time after time, while we seek to support those 
looking to improve their lives, affording needed further education 
rings loud as a key barrier. An additional--albeit an unnecessary and 
yet easier to remove--barrier is the current process through which 
students can even access financial aid that is available: the FAFSA 
form and verification process.

    While Symone's story about affording college is very common, those 
from Melina and Brandon, which are about actually completing the FAFSA 
form, are stories we experience every day--getting tax and financial 
information from ``parents.''

    Melina has DACA, but her parents are undocumented. While they pay 
taxes, they are concerned about using the data retrieval tool because 
they are worried about being deported. Melina has already received a 
scholarship from her college that will allow her to attend, but she is 
scared of asking the wrong person for help with her next step in 
verification. Therefore, she doesn't take the next steps.

    Brandon, a student who is eager to raise himself and his family out 
of poverty, attempts to complete the FAFSA himself (and not with our 
College Now advisor). We later find out that he answered questions 
wrong such as family size and dependency status (he thinks because he 
supports his family financially and pays his own living expenses, he 
should be considered independent). Subsequently, he finds out about 
these errors and his selection for verification post important 
scholarship deadlines. Now what does he do!

    Having Federal financial aid is crucial to the college-going 
process but completing the FAFSA form is a barrier for many students. 
Not all students are fortunate enough to have a relative, school 
counselor, or college access advisor available to help them through the 
process. And as with filing your taxes, help is frequently needed.

    Given the impact on students' ability to attend college, 
simplifying the FAFSA form is a necessary step in the quest to make 
college more affordable. Several organizations have promoted a system 
to simplify the form that would group students based on their financial 
strengths and then have them follow pathways with respect to their 
FAFSA completion based on their unique circumstances with the ultimate 
objective of allowing for a far shorter FAFSA form.

    To be fair, creating the FAFSA form was well intended. One of the 
goals was to have a universal form because before 1992, students could 
use various forms to apply for Federal financial aid. But they also had 
to complete a separate state form and additional forms for each 
institution to which they applied. And yet creating the FAFSA was not 
enough. Fast forward to today, approximately 300 selective 
postsecondary institutions also require that students, yearly, complete 
the CSS profile and/or their own form before awarding their 
institutional aid because they believe the FAFSA is inadequate.

    Further simplifying the FAFSA form isn't enough. We must also work 
to address issues related to verification. Verification occurs when 
students who submit the FAFSA are asked to submit additional documents 
to the college's financial aid office to support the information 
entered on the FAFSA. The process is intended to reduce fraud and 
ensure the integrity of these distributions. Once selected for 
verification, financial aid cannot be dispersed until the process is 
complete.

    The process itself is cumbersome to students causing upwards of 25 
percent of Pell eligible students to ``melt'' between being selected 
for verification and their enrollment. Furthermore, low-income students 
are more likely to be selected for verification because students who 
are calculated to have a zero expected family contribution (EFC) 
(meaning their household income is less than $25,000) have a higher 
chance of being selected for verification than their wealthier peers. 
While it seems abundantly reasonable that the Federal Government and/or 
a college or university would want to conduct its due diligence before 
awarding financial aid dollars, if selected for verification, a student 
should be able to provide as sufficient evidence proof of enrollment in 
another means-tested government benefit (e.g., SNAP).

    Not only that, the current verification selection algorithm also 
means that if you're selected for verification at one institution, you 
are likely to be selected at multiple institutions. This increases the 
barriers to getting aid because each college has its own verification 
process usually requiring students to submit a combination of tax 
returns, W-2 statements, 1099 forms, and other legal documents.

    There is Deanna . . .

    Deanna is currently a student at local Northeast Ohio community 
college studying to become a nurse. Deanna has relied on the Pell grant 
for the last 2 years. She turned in all the required paperwork and 
registered for classes. After the semester began, she was notified that 
she had been dropped from her classes because she owed a balance. When 
she spoke with her Financial Aid office, she learned that all her 
Federal aid had been revoked. The Financial Aid office claimed to have 
not received her necessary paperwork by its verification deadline. 
Because the school year had already started and Deanna had been 
attending classes, she had to re-pay the Federal aid for which she was 
eligible. As long as there was an outstanding debt on her account, she 
would also be ineligible to receive any future Federal aid.

    This missed verification deadline cost Deanna thousands of dollars. 
She not only lost her Federal aid last year, she also lost a 
scholarship that required an award letter and proof of Pell grant 
eligibility. On top of all of that, she now had to pay for her tuition 
out-of-pocket while also trying to make payments on the debt she 
shouldn't have owed in the first place.

    Our receiving colleges are burdened with the task of verifying 
student information impacting their student yield rates by creating 
additional processes that serve as barriers.

    Communities, students, families, school districts, and 
postsecondary institutions are working to help students surmount these 
and other barriers to education. The consequences of not doing so are 
evident in educational attainment rates, the skills gaps, earning 
potentials of family members, rates of poverty (especially among kids), 
and the list goes on and on.

    But there is some hope--just being here and sharing this with you 
gives me hope. In places like Ohio and other states, we are setting 
aggressive goals for increasing educational attainment. We are 
implementing strategies to mitigate the barriers: such as competing for 
Federal grants to increase awareness and preparedness of student and 
families; raising millions in scholarship dollars; working with state 
agencies to increase state support for post-secondary; and making 
community college free, among many other activities. In Cleveland 
specifically, we were recently named a Say Yes to Education city, the 
final of four chapters to be established. Our theory of action is to 
provide comprehensive wrap-around services along students' K-12 
educational paths and then offer last-dollar tuition scholarships for 
graduating high school seniors. In Cleveland, the community has raised 
enough scholarship funding for two generations of students! Completing 
the FAFSA is a requirement for receiving the Say Yes scholarship, and 
College Now's commitment is to ensure that we provide enough support to 
help these students get through the form and verification process!

    The Federal Government has also taken steps to mitigate barriers to 
post-secondary including: the use of Prior-Prior year taxes, which 
supports student completing the FAFSA earlier; opening the FAFSA form 
in October versus January; implementing the IRS Data Retrieval Tool; 
and creating a mobile responsive website and app, with partners such as 
NCAN. Likewise, funding continues for programs such as GEAR UP and TRiO 
(but not enough), but there is so much more that needs to be done . . .

    Congress can address issues related to the FAFSA and verification 
process including:

        <bullet>  decrease the number of data elements on the FAFSA, 
        thus decreasing the number of items that need to be verified;

        <bullet>  allow FAFSA filers receiving means-tested benefits to 
        receive an auto zero EFC, and not selecting those students for 
        verification, based on their means-tested benefits receipt

        <bullet>  use data-sharing across Federal agencies to confirm 
        the receipt of the means-tested benefits; and

        <bullet>  amend Internal Revenue Code Section 6103 to allow for 
        direct sharing of data between the Departments of Treasury and 
        Education.

    In addition to these direct fixes, Congress can legislate numerous 
recommendations to force the enactment of the changes by the Department 
of Education and through the NRMP.

    Opportunities abound to support kids and adults across the Nation 
and especially in Ohio with necessary post-secondary education. Our 
ability to compete as a region, a state, and a nation requires more of 
our students (who come from low-income backgrounds and/or are first-
generation goers) to increase their educational attainment. We are the 
rising demographic.

    Thank you again for this opportunity. If there is any additional 
information that I can provide to support your work on higher education 
and college access issues, please do not hesitate to contact me. I am 
proud and honored to be of service to your deliberations.
                                 ______
                                 
              [summary statement of michele scott taylor]
    College costs and issues of affordability are a significant 
challenge facing our young people and our adults. The reauthorization 
of the Higher Education Act can address key policy levers critical to 
ensuring that more low-income students--and increasingly--those from 
middle-income backgrounds as well can afford higher education.

    In Ohio, these challenges are especially pronounced due to the 
state's higher than average ``cost of attendance.'' According to a 2016 
report by Vanderbilt University's Peabody College of Education and 
Human Development and the Penn State University Graduate School of 
Education, Ohio ranks 45th in the nation in key college affordability 
metrics (Institute for Research on Higher Education, 2016). The average 
cost of attendance at a public college or university for an Ohio 
resident in 2018-19 was $26,275 (College Now, 2019). This compares to 
$20,770 nationally (Value Penguin, 2019). To afford to enroll in 
postsecondary, most Ohioans must borrow loans or qualify for grants. 
These resources, in addition to even institutional merit aid and 
scholarships, can be accessed only through successfully completing the 
Free Application for Federal Student Aid, or the FAFSA--an oft-used 
measure of need by financial aid providers and not just the Federal 
Government.

    Unfortunately, both the real and perceived complexity of the FAFSA 
form, often followed by an unwieldy verification process, serves as a 
hindrance to college access for the most in-need students, including 
our homeless and at-risk for homeless youth, foster youth, and young 
adults aging out of the foster care system. Each year, only 45 percent 
of low-income students complete the FAFSA, missing out on $24 billion 
in financial aid (Kofoed, 2016). Of those students who do successfully 
complete the form and are deemed Pell eligible, a total of 25 percent 
are lost to the verification process and do not enroll (Warick, 2018). 
It is critical that Congress continues to simplify the FAFSA and the 
resulting verification process so that more students, especially those 
who are first-generation and low-income, can actually pursue 
postsecondary education.

    Simplifying the Federal financial aid process is key; but not 
enough. We must think comprehensively about strategies for making 
postsecondary more accessible and affordable to vulnerable populations. 
Federally supported programs like GEAR-UP and TRiO (which includes 
Talent Search and Upward Bound, for example) implement and iterate on 
best practices for promoting much earlier college access and awareness 
about college affordability. In addition, we must continue to increase 
the Federal investment in the Pell grant--which now only covers 29 
percent of the total cost of attendance at a four-year school for an 
in-state student. This is a staggering decline from 1975, when the Pell 
grant covered 79 percent of the cost of attendance (Center on Budget & 
Policy Priorities, 2018). We also encourage the publishing of more data 
by the Federal Government--disaggregated by race and ethnicity to fully 
understand who is utilizing existing Federal programs--and who is being 
left behind. The availability of such information can help ensure 
nonprofits, like College Now, are serving the most in need and directly 
addressing known equity gaps.

    Congress can address issues related to the FAFSA and verification 
process including:

        <bullet>  decrease the number of data elements on the FAFSA, 
        thus decreasing the number of items that need to be verified;

        <bullet>  allow FAFSA filers receiving means-tested benefits to 
        receive an auto zero EFC, and not selecting those students for 
        verification, based on their means-tested benefits receipt

        <bullet>  use data-sharing across Federal agencies to confirm 
        the receipt of the means-tested benefits; and

        <bullet>  amend Internal Revenue Code Section 6103 to allow for 
        direct sharing of data between the Departments of Treasury and 
        Education.

    In addition to these direct fixes, Congress can legislate numerous 
recommendations to force the enactment of the changes by the Department 
of Education and through the NRMP.
                                 ______
                                 
    The Chairman. Thank you, Dr. Scott Taylor. Thanks to each 
of you. Why don't we now go to a round of five-minute 
questions, and I will ask you to keep your questions and 
answers within the five minutes so everybody can have a chance. 
I will begin.
    Let us start with, we have been at this for five years now, 
and you would think after five years we could go ahead and do 
it. That might be something that--and I think there has been a 
real benefit to that. I remember when Senator Bennet and I 
listened to the same testimony and we asked the four witnesses, 
would you each write us a letter about how to fix the FAFSA, 
and they all looked at each other and said, we do not need to. 
You know, we agree. We will write you one letter. And since 
then, we have gone through the process that I described in my 
opening statement.
    I think we are pretty close to agreement with many Senators 
understanding it. Two things I want to focus on today. One is, 
and my question, verification and expected family contribution. 
Now, one of the complaints is that, in regard to today, is that 
the verification process is focused on low-income students 
disproportionately, but Senator Murray and I introduced 
legislation which passed the Senate, and we hope we can 
persuade the House to do that, which would allow people who 
filled out the FAFSA to, with one click, answer the 22 
questions that can be answered by IRS data.
    Dr. Wiederspan, you have done lots of study on this. 
Wouldn't that exchange of information from the IRS to the 
Education Department greatly reduce the need for verification? 
Wouldn't there just be a lot less of it?
    Dr. Wiederspan. Yes.
    The Chairman. Because is it not that the information that 
is basically being verified when you fill out the same 
information here, the same information there. They are catching 
you to see if you make a mistake.
    Dr. Wiederspan. Yes. In fact, one of my last papers was 
looking at the feasibility of using prior income tax return 
information with those exact elements that you were talking 
about, based on the bill that you and Senator Bennet had 
introduced. And basically, we had found that 70 percent of 
students would notice no change in their Pell eligibility, and 
it would definitely reduce the need for verification because 
the elements that they are being flagged for verification is 
coming from the IRS. So, there would be no need to have them 
report that information again.
    The Chairman. Mr. Meotti, you talked about verification 
too. There is also the issue of self-reported data that some 
students are asked, like untaxed income for example. If we 
eliminate that and if we also made it so you do not have to 
give information to the Government twice, the bill Senator 
Murray and I have sponsored, wouldn't that in your--what effect 
would that have on ``verification'' in Washington State and in 
Connecticut were you have worked?
    Mr. Meotti. Yes. I think the challenge can be greatly 
diminished if we, just look at a comprehensive refund, just 
basically a common sense approach, most Americans would feel if 
you looked at this and said yes, the Federal Government is 
asking you to--one agency of the Federal Government is asking 
you to get a document for another agency of the Federal 
Government to prove to you what they already filed with them 
under penalty of law at the IRS, right. And I also think there 
are also a whole series of common circumstances that are 
associated with the families that tend to be very low income 
that were then causing them to go through extra effort to 
document, only to ultimately verify that they are eligible but 
with loss of students along the way. So, I think it all could 
be done.
    The Chairman. The Department of Education also estimates 
that there are about $6 billion in mistakes each year with the 
current system. Some students are paid a little more than they 
should be, some paid a little less, so eliminating most of the 
current verification system and replacing it with the exchange 
of information between the IRS and the Education Department 
should reduce those mistakes. Let me move to another confusing 
part of the Federal Student Aid Application. That is the 
expected family contribution. Now, that is a mystifying thing 
as well. Isn't it possible that we could use some simpler table 
or simpler calculation rather than putting students through the 
so called expected family contribution maze of the number of 
questions in order to calculate it for a typical high school 
student? That student would need to answer fifty questions and 
use seven charts to complete the calculation. How can we 
simplify that? Anyone?
    Mr. Meotti. Speaking from our perspective in Washington, I 
think there is a lot of opportunities to identify people by 
status and some other program like the way we use free and 
reduced price lunch. If you are in it, we get the data and we 
make you eligible. We do ask you to sign to attest to that, and 
that is it. So, I do think that those kinds of approaches would 
address kind of the issues that you raised.
    The Chairman. Well, my time is up, but I want to thank 
Senator Murray for her leadership in working with a number of 
us to try to stop the practice of the 420 million families who 
fill out the FAFSA every year, having to give the Federal 
Government the same information twice, and I hope we can 
persuade the House of Representatives that that is a good idea.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman. Want to have a 
little bit of feedback from you, Mr. Meotti, about the so 
called work penalty. We have had previous hearings on FAFSA 
simplification and identification of need in this process. And 
there has been a recognition from witnesses that those students 
who must work while attending school in order to meet the true 
needs not just of the cost of college but also food, housing, 
transportation, health care, child care, and more, that the 
current system includes a work penalty that can reduce a 
student's need-based aid if he or she obtains too much money 
from work, putting him or her in an impossible situation. While 
ideally students would not have to work in order to afford 
college, I believe that we need to take steps to ensure that 
those who must work are not pushed further into financial 
difficulty by losing their Pell Grants or other need-based aid.
    I am going to be soon re-introducing the Working Students 
Act, which would increase the income protection allowance, the 
amount a student can earn from work without endangering his or 
her need-based aid. But, Mr. Meotti, do you agree that we need 
to address this barrier that some students face when we 
evaluate their need in accessing Federal financial aid?
    Mr. Meotti. Yes. I mean, I think there is still in the 
background culture in all this notion that college students are 
18 to 22 years old and dependent members of a household where 
someone else is paying the bills. The reality, like in our 
financial aid programs, a third or more of the students we 
serve are over the age of 25. They are not dependents. Someone 
else is not paying the bills for the household. They are 
working. They probably have children. A quarter or more of our 
air recipients have children, very similar to Pell, I am sure.
    The reality is if we want to, serve the labor markets we 
have now in this country, there are going to have to be people 
of all ages. Many of them will be getting their first 
undergraduate credential, maybe a certificate or an associate's 
degree, let alone a baccalaureate. They have to work, that is 
absolutely imperative of life for them.
    We have to have a system that recognizes it is not what 
higher education might have looked like in the late 40's and 
50's. And even then, I think it was not quite what we thought 
it was then. But clearly now, it is not.
    Senator Baldwin. Thank you. For a first-generation college 
student without family or other supports, even the simplest 
FAFSA will likely not be enough to get them to understand that 
college could be for them, let alone how they should go about 
affording it. I am a big supporter of Federal TRIO and GEAR UP 
Programs, which help low-income and first-generation students 
explorer college options, successfully apply and enroll, 
persist through their programs, and even explore graduate 
education.
    I also strongly support the 21st Century Community Learning 
Centers Program, which funds after school activities that 
include things like mentoring, career exploration, and skill 
building that helps younger students begin that path to a 
higher education. Dr. Scott Taylor, do you agree that investing 
in these programs and the supports that they provide for 
students are also an important strategy to get more students 
connected to the Federal aid that will help them afford 
college?
    Dr. Scott Taylor. Absolutely. Programs like TRIO, GEAR UP, 
and 21st Learning Community Centers Programs, which we do have 
at College Now, provide earlier access, and what we are able to 
do is have much deeper and earlier conversations about what it 
takes to finance a college education. Waiting until students 
are in high school or till adult learners come up against a 
barrier is just simply too late.
    Programs like TRIO, GEAR UP, and 21st Century Learning 
Centers allow us to work with students, and not only the 
students, their families, by providing exposure opportunities, 
giving students and families college knowledge because it is 
not just going to college and doing your school work, there is 
a culture to higher education that most people do not talk 
about. It is very invisible, and it is more often than not a 
middle-class income culture. And so, if you are not from that 
culture, it could be very difficult navigating the pathways to 
successfully complete.
    Programs like these, which we are very fortunate to have, 
and I hope we continue funding them, do help students kind of 
enter into that culture so that they can learn navigate, and be 
successful, and persist to completion. So yes, absolutely. 
These programs are essential, and I hope that you all will 
continue to fund them because they are critical for low-income 
students like myself and others.
    The Chairman. Thank you, Senator Baldwin. I ask consent to 
enter two statements in the record. The first from Mike Kraus, 
Executive Director of the Tennessee Higher Education 
Commission, key leader behind the Tennessee Promise initiative. 
And the second is from the National Association of Student 
Financial Aid Administrators. They will be entered into the 
record.
    The Chairman. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman. Testimony makes it 
patently clear that we need to do this. It is disappointing to 
me as a main stream entrepreneur, School Board member for 10 
years and coming from a state like Indiana, that this would 
take this long to dispatch. So, thank you Mr. Chairman, for 
moving it along.
    I want to spend my time to talk about the bigger picture 
affecting student loans in general, and that is the cost of 
post-secondary education has gotten to where it is feeding into 
a debt load that is unsustainable. The $1.4 trillion that we 
have out there in Federal student loans is a bubble.
    The next thing that is going to occur that even if the form 
is a lot simpler to get access to, we got a much bigger 
problem. I look to see what is happening in post-secondary 
education and other than just a few spots, maybe like Mitch 
Daniels at Purdue University, we do like we do here on many 
things, stick our heads in the sand. Let it turn into a 
calamity, and then we try to pick up the pieces. So, I think 
that is the key issue that we need to get figured out, how to 
bring cost down. It would take more than the time I have got 
allotted to tell you some of the good ideas somebody like Mitch 
Daniels has put into place.
    Second, per the reference to four-year degrees, and access 
to them, and their affordability, paramount, but it also begs 
the question of what are the other alternatives. And I know in 
my home state, we are exporting about half of our four year 
degrees. We do not need them. We are filling those slots well, 
and that is not to disparage at all that aspiration of trying 
to reach for it, but again, it is the attainability and what do 
you do with it. Many of them do not find a market. You know, my 
own daughter got a journalism degree, and I wish somebody had 
guided differently to were--that trajectory would have been 
different. There would have been many other great options. CTE 
degrees that are not four years in nature that require a lot 
less money, I think, need to get a little higher profile if we 
are going to turn around the trajectory that I see, where again 
this thing is going to blow up with some type of major problem.
    Brings me to the number three concern and something I hope 
all Senators here address with more sobriety coming up, and 
that is our budget. Because what I mentioned before CTE and the 
affordability, that is specific to this Committee and 
discussion. But we are looking at a Federal budget that even 
from the President, we are looking trillion dollar deficits 
over the next few years, and we are looking seven, eight, nine 
years down the road where it is $1.5 trillion. All I can tell 
you, all of the good discussions we have here, and I have been 
a part of many of them, are kind of academic. If we do not get 
the reality check that we cannot keep heading down the road to 
were whatever we want to do for the good of the American 
public, we are doing it in the context which is to me deceptive 
that you are going to be good in anything. And it is going to 
be there in the long run if we do not find a way to get this 
institution to live like most others do. It should set the 
example for everyone.
    We should not be out here talking about student debt and, 
it is interesting the form and the particularity of what we are 
talking about here. That should have been solved a long time 
ago. But if we do not start to make hard choices and quit 
deluding the public that we can keep doing what we are doing 
without bringing in not only our balance sheet to where it is 
going to be sustainable, but especially our P&L 4.4 trillion, 
and we only raise resources just to cover $3.3 trillion to $3.4 
trillion of that, it is not going to end well.
    I am going to keep harping on this whenever I can bring it 
into the conversation because all of the good things that we 
talk about in committees are not going to have any relevance 
unless we take--especially this year, I am on the budget 
committee, and I think there is a real need to put the sobriety 
test to it and start to reign in this institution where it is 
going to be there for people to depend upon it, if we 
accomplished that, start the process, we have done a lot as 
Senators. Thank you, and I yield my ten seconds.
    The Chairman. Thank you, Senator Braun.
    Senator Hassan.
    Senator Hassan. Well, thank you, Chairman Alexander, and I 
am grateful to you and our Ranking Member for holding this 
hearing. I am really grateful to our witnesses not only for 
being here today, but for the work you do and for being willing 
to share your expertise with this panel. And I am really happy 
that my colleagues and I largely agree that students should be 
able to more seamlessly apply for Federal financial aid through 
a simplified application process. I was proud to co-sponsor the 
FAFSA Act and I look forward to working with both the HELP and 
Finance committees on how we can continue to improve data 
sharing with the FSA and the IRS to make the student aid 
application process easier for students.
    That being said, higher education remains out of reach for 
many not because they cannot fill out their FAFSA, but because 
they do not have the resources to cover the full cost of 
attendance. While we should continue to work together on 
simplifying the student aid process, we also have to find ways 
to ensure that students get the support they need without being 
harnessed with untenable amounts of student debt. I was talking 
to a young man in Salem, New Hampshire just a couple of weeks 
ago. He is 32 years old carrying $102,000 worth of debt. You 
know, there are ideas that members of the Senate have on, for 
instance, allowing students to refinance their debt at a lower 
rate just as a starting point, and I think we are going to need 
to continue to think about ways of really addressing that 
burden as well. But I did want to touch base with all of you on 
some of the work you are doing.
    Ms. Scott, in your testimony you outline ways that Congress 
could simplify the FAFSA application process and in turn remove 
barriers to students receiving the student aid that they are 
eligible for. Do you think these barriers to financial aid 
deter some students from pursuing higher education all 
together, and what are some of the strategies that Alabama 
Promise uses to ensure that students do not give up on that 
process?
    Ms. Scott. Thank you, Senator. I know that the process of 
applying for financial aid deter students from going to 
college. And some of the strategies that we use provide in 
school workshops in the Birmingham area, which is where we are 
located. We also work statewide, and so we are working closely 
with our community college system and our local school system 
to make sure that the community colleges that have a great 
interest in increased FAFSA completion and really provide an 
important proving ground for the workforce that Alabama needs, 
that they have a relationship with the State Department of 
Education and that the local community colleges have 
relationships with the high schools.
    We also do a lot of media. I go on the news all the time. 
We do social media. We try to make the language very simple 
because words like emancipated minor, trying to figure out who 
your parent is, we really try to bring it down to a 7th grade 
level and that is not always easy. And if we could get some 
help from the Federal Government on that, and we have even had 
to simplify the FSAs, who your parent chart is because we 
realized there were plain points in it, so we made it even more 
elegant and simple. And so, if we could reduce the number of 
questions, use plain English, have data-sharing ability with 
the IRS and means-testing, all of that would communicate the 
message to students and parents that post-secondary education 
is a possibility, and there is help to pay for it.
    Senator Hassan. Well, thank you. I appreciate that very 
much. I know that you are also taking steps to alleviate 
poverty on campus, and I know a number of you are doing that. 
At the University of New Hampshire, one student who identified 
food insecurity on-campus spearheaded a program that allows 
students to donate their extra meal passes to a pool so that a 
student in need can anonymously access food through the dining 
service. I wanted to turn to you Dr. Scott Taylor in just the 
minute I have left, because in addition to that kind of 
creative community support for each other, one of my priorities 
has been to ensure that students are aware of the services and 
benefits that they are eligible for on and off campus.
    Last Congress, I introduced the Gateway to Careers Act, 
which would help fund wraparound services to students enrolled 
in career pathway programs at community colleges, including 
helping students navigate programs like SNAP, and affordable 
housing. Dr. Scott Taylor, what are some of the barriers that 
you see that students and their families face to connecting to 
means-tested public benefits that they may be eligible for, and 
how can the Federal Government states and institutions reduce 
those barriers?
    Dr. Scott Taylor. Thank you so much for the question. I 
think one thing that we can do in a community and then with 
help from the Federal Government is cross-training providers on 
how to use the platform that access Government benefits. What 
we did in Cleveland, Ohio some years ago is we trained our 
college access advisors on how to use the platforms so if a 
parent or student was accessing say SNAP or other Federal 
benefits that they can also complete the FAFSA at the same 
time, and where we can refer them and direct them. Kind of 
giving them a smoother hand off because, again, they do not use 
the Government services and silos, and the more that we can 
show the connection to you can get this therefore you can get 
that.
    It is amazing how many times we have had parents who apply 
for Government benefits realize that they are actually eligible 
for financial aid and they can go back and get some education 
so that they can improve their situation, which is what I think 
is very important. And we would like to see more of that 
happen.
    Senator Hassan. Thank you very much. And thank you, Mr. 
Chairman for your indulgence.
    The Chairman. Thank you, Senator Hassan.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Dr. Wiederspan, 
according to the finance authority of Maine, about 91 percent 
of Maine students who are selected for verification are 
eligible for Pell Grants. In your testimony, you noted that 
Pell eligible students selected for verification are less 
likely to end up enrolling in college than those Pell eligible 
students who are not selected for verification. The financial 
aid professionals with whom we have talked called this 
verification melt. In other words, many of these students 
simply do not complete the process and they do not end up going 
to school. What is your one biggest recommendation that you 
would have for us to try to deal with the problem of 
verification melt?
    Dr. Wiederspan. One thing that I also did mention is that 
there is other aspects of who gets selected for verification 
amongst Pell eligible students, and one of them is that 
students who use DRT are less likely to be selected for 
verification. But in many cases, a lot of those students that 
are Pell eligible and that use DRT are still getting flagged 
for verification even though it is coming directly from the 
IRS, and they still need to verify that what I reported to the 
IRS on my FAFSA is correct. So that is just one example of 
where we could definitely reduce the number of those Pell 
eligible students that use the DRT that they do not necessarily 
need to be verified as much as they are.
    Senator Collins. Thank you. Ms. Scott, you mentioned in 
your testimony a young woman who was in the care of her 
grandparents who are not her legal guardians. This issue is 
coming up more and more often in the State of Maine, sadly 
because of the Opioid Crisis where grandparents have stepped in 
to raise their grandchildren. So, then the grandchildren get to 
senior year in high school, their grandparents are not their 
legal guardians, their legal parents may be out of the picture, 
however, and there is lots of confusion about whether the 
grandparents' income counts toward the expected family 
contribution. We are having more and more calls to our state 
offices about this. What would you suggest that we could do to 
better inform grandparents about the financial aid process?
    Ms. Scott. Well I would simplify the system by allowing 
students who are being raised by their grandparents but through 
no legal obligation, really because the grandparents have 
decided to take the grandchildren into their home because it is 
the right thing to do. And most of the communities we work in, 
there is no legal custody relationship. It is a small town. 
Everyone knows each other. Alabama is a rural state like Maine, 
and the student shows up to school and manages to get through 
12 years of school without any issues with being abandoned or 
neglected by their parents.
    But I have heard from multiple students who faced 
complicated parental situations that if they were allowed to 
apply as provisionally independent and then their college was 
able to work with them to get a letter from the school 
counselor or school social worker, to simplify the process so 
that these students are not held back because of their family 
status. It is not--the student who wants to go to college 
should not be impacted negatively because of their family 
situation. Those are the students we should be lifting up and 
easing through the process instead of making it more 
complicated for them.
    Senator Collins. Thank you. Dr. Scott Taylor, when I heard 
you talk about your own experience, it reminded me of the 
experience of so many families in Maine who simply do not have 
experience with higher education. The administrators at the 
university, they tell me that they see many errors on the 
questions regarding grade level and degrees for which students 
are applying.
    For example, some students graduating from high school 
mistakenly believe that they are graduate students and students 
applying for different kinds of schools may not accurately 
answer questions about whether they are working toward an 
associate degree or a baccalaureate degree. This is a strange 
new world for them if they have not gone through the TRIO 
program or similar programs. But this raises the question in my 
mind for these first-generation college students, if we are 
merely calculating a family's estimated contribution toward the 
degree for this student one year at a time, do we really need 
those kinds of questions on the form?
    Dr. Scott Taylor. Of course, I would agree with my 
colleagues and say no, I think that the form can be simplified, 
and questions can be reduced. If a student is deemed eligible 
for Federal aid in their first year, chances are that does not 
change often particularly for first generation college goers. 
So, I think in the spirit of making the process easier and 
uplifting students who need the most help, I think reducing the 
number of questions that really do not assist in us determining 
whether or not they are eligible for aid would be a tremendous 
step in the right direction, particularly that question around 
what type of degree are you pursuing. Most kids who we work 
with do not even know the difference just yet between 
associate's, bachelor's, etc.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Collins.
    Senator Jones.
    Senator Jones. Thank you, Mr. Chairman. You know and thank 
you for the hearing and for the work your staff is doing with 
mine on this important issue. I do find it, I will tell you, a 
little ironic that we are talking about barriers to college 
with primarily low-income folks and people that cannot do this, 
is that I am sitting here, I get a Washington Post note that 
says that the FBI chooses some 30 wealthy parents, including 
celebrities, in a college entrance bribery scheme. I guess the 
barriers to a really good college that you can afford are a lot 
different than what we are doing. So, I appreciate your 
testimony and trying to get folks into college that truly want 
that education and need that.
    Ms. Scott, again thank you in particular for all the work 
you are doing in Alabama to help raise the number of FASFA 
applications. My office has started doing some workshops, I 
think, with you and others to try to get this process until we 
can get this legislatively. One thing you mentioned in your 
testimony, kind of piggy-back to some of what Senator Collins 
and Ms. Scott were talking about a minute ago. You talk about 
the focus on funds available rather we should focus on funds 
available rather than what is the family expected to pay. Could 
you elaborate on that just a little bit, the importance of 
that?
    Ms. Scott. For low-income families where students don't 
think there is any money available for them to go to college, 
and when we started this work almost 10 years ago, we thought 
that the issue in Alabama and our low educational attainment 
rate was because students did not want to go to college. But we 
quickly learned that is not the case. It is that our students 
did not know how to pay for college. And so, there was an idea 
that I am not even going to think about going to college 
because there is no way for me to pay for it.
    College Promise programs like Tennessee's, like the 
Kalamazoo Promise, have a very powerful message that says no 
matter who you are, no matter who is in your family, no matter 
what is going on, if you fill out a form, we are going to 
ensure that you can go to college. And again, that the two year 
or four year technical academic program, I do not care. I think 
one of our issues is that we need to elevate technical 
education so that parents are just as confident sending their 
student to a community college to be a welder, as they are to 
send them to Harvard do pre-med. But if we can simplify the 
message that there are funds available and do it like 
Washington has where instead you are on free and reduced lunch, 
you can probably qualify for financial aid if you fill out this 
form.
    The form is still a barrier, but you are able to have the 
message that there is a way available to pay to go to college. 
And so that simplifying that message and making it clear and 
making the process work for students instead of--I do not know 
who the process works for right now because I am in a financial 
aid administrators Facebook group and they complain about the 
process all the time. And I know that as direct service 
providers the process does not work for my folks and the 
process is not working for students.
    I really question if the process is itself a barrier to 
that college going culture and that understanding that there is 
a way available to pay for it. And the more that we can 
communicate, you get SNAP if you are on free and reduced lunch, 
this is what you will qualify for. Somebody suggested that 
there be a chart. If you are in a family of four and your 
adjusted gross income is less than, I am just going to make up 
a number, $60,000 then you will qualify for a grant to go to 
college. The simpler we can make it, the better. Our banks have 
gotten good at this. TurboTax is good at this. We can do 
better.
    Senator Jones. Alright, thank you Ms. Scott. As we all 
know, we talked about the student debt crisis and research 
shows it impacts students of color harder than others. And in 
early January I sent a letter to a number of stakeholders 
asking how we can improve policies to deal with that. In the 
short time we have got remaining, I know that Alabama Possible 
and the College Now Greater Cleveland both answered those 
questions. Could you give just briefly, talk about on a record 
here, your responses of how we can do that? How we can be 
better for people of color to pay their loans? Ms. Scott, real 
quick.
    Ms. Scott. In addition to streamlining the FAFSA, making 
the language clear, tying the Pell Grant to the cost of college 
so that it reflects today's cost of college, there is also a 
very important issue for HBCUs which is that Title III 
mandatory funding is set to expire, and that is critical for 
students of color in order to be successful.
    Dr. Scott Taylor. I would say simplify the language. Make 
it much more accessible and start with families much earlier. 
There is an intersection between students who are first gen, 
low income, and race, as we talked about. So just aggregating 
Federal data so that we can understand what those disparities 
are so that we can really target our efforts and our 
approaches. But making the message simpler, communicating it 
earlier, so that students and families are aware of what it 
takes to finance an education and have opportunities to start 
the process much earlier than signing their promissory note not 
even understanding what they are signing.
    Senator Jones. Great. Well, thank you. Thanks again to all 
the witnesses and thanks for responding to our letter. Thank 
you, Mr. Chairman.
    The Chairman. Thank you, Senator Jones.
    Senator Kaine.
    Senator Kaine. Thank you to the witnesses. Great hearing. 
And Ms. Scott, you were just talking about the need to elevate 
career and technical education. Senator Braun talked about the 
same thing. Senator Portman and I have a bill called the Jobs 
Act, which is heavily supported especially by America's 
community colleges that would allow Pell Grants to be used for 
shorter-term, high-quality, validated, verified career and 
technical programs, and we hope to have that as part of the 
discussion as we are in the Higher Education Act 
reauthorization. I want to ask about a question also related to 
something Ms. Scott just mentioned.
    I am all for the simplification efforts and I like the fact 
that there is some good bipartisanship around this table on 
those. I want to focus on a different form of simplification. 
You can simplify the form for families, or you can essentially 
say, if your family is on food stamps you should be able to 
qualify for a Pell Grant without having to fill out and get a 
whole lot of things verified because you have already been 
verified for a means-tested program. If you are on free and 
reduced lunch, there is a verification for that. That should 
count when you are going to college. If you are in the foster 
care system where there has been a court order that you need to 
be placed with a different, set of adults because your family 
is not capable of supporting you, an order like that should be 
able to be a proxy for the elaborate FAFSA form.
    I would just like each of you to address, simplification we 
should do it, but how about accepting other verifications and 
validations on means-tested programs as a proxy to enable 
students who have already qualified for those programs to be 
considered for financial aid, Pell Grant, or other kinds of 
need-based financial aid?
    Dr. Scott Taylor. We agree with everything you just said.
    Senator Kaine. As part of doing this, we should definitely 
explore those alternate validations.
    Dr. Scott Taylor. Absolutely. And then find ways for us to 
share the data so that we can, as service providers, help 
families understand that if you are eligible for this, you are 
eligible for that. So, kind of cross-pollinating the knowledge 
about the opportunity.
    Senator Kaine. Dr. Wiederspan?
    Dr. Wiederspan. I agree. And also, if you just look at it 
from a budgeting perspective that if you know there is this 
share of many people, you would know. It would allow states 
such as Iowa to at least know, well this is how much money we 
are going to need to set aside for this particular program. I 
think that would be very beneficial for that.
    Senator Kaine. Mr. Meotti.
    Mr. Meotti. Yes, absolutely Senator. I mean, I think first 
of all we do it a little bit in Washington where we work with a 
free and reduced price lunch population on one of our state 
grant programs. But there is no question that there is probably 
so much more gain not only for the students, but when you think 
of all the time that Americans whether they are students or in 
financial aid offices and others, they are putting into this 
system right now to know really clear public policy benefit, to 
be able to use these markers, as indicators of need, I think is 
where there is tremendous opportunity.
    Senator Kaine. This is sort of a pet peeve of mine, much 
broader than this question, different agencies control their 
own security clearance process. Why can't my security clearance 
that I got for the Department of Defense, why is that not 
sufficient to give me the security clearance when I apply for 
the Department of Homeland Security? Does it have to done all 
over again? And I think validation of family income and assets 
for means-tested programs, that ought to be the kind of 
information we share.
    Ms. Scott.
    Ms. Scott. I would also say there is an opportunity for 
what is called intrusive advising which might be a different 
way to call wraparound services, but for institutions to 
communicate clearly with students and families about benefits 
they are eligible for, and so that every student gets screened 
to see if they might be eligible for SNAP benefits while they 
are in college, particularly as we have more and more adult, 
truly independent learners. What is the child care situation? 
We have increased funding for childcare on college campuses but 
what about other options for low-cost or no-cost child care? 
That is a crisis on college campuses today. And I would also 
like to ask you Senator to think about those quality guardrails 
with short-term Pell Grants to ensure that students are not 
going to institutions and getting a short-term certificate, but 
actually may be going into it more debt than they need to and 
not have the job outcomes that is really expected from a 
Federal investment for a Pell Grant.
    Senator Kaine. I think that is extremely important for 
short-term, medium-term, long-term, when where the Federal 
investor and students getting degrees, the degrees should be 
high quality degrees. However long the course was or however 
many classroom hours, there has got to be independent 
validation. I completely agree with that.
    Then finally I would just say to Dr. Scott Taylor, you 
talked about the severe information deficit that a lot of low-
income families face. They are trying to grapple with the cost 
question, and can I afford it. I talk to a lot of middle-class 
families who also feel--and even if they have resources and 
some savvy and they might have been to college themselves, it 
is so complicated as they are now getting to this question of 
their own children's education. The goal is simplification that 
is this Committee's goal, is something that is going to help 
families of all levels is really important.
    Dr. Scott Taylor. Right. I worked with a lot of families 
whose parents attended more selective institutions when they 
were in undergrad, realizing now that their children cannot 
afford to go to those same types of selective institutions. And 
as you can imagine, it is very heartbreaking when you think 
your child is going to go to your alma mater or school 
comparable to the one you went to get a comparable education, 
and they are finding that they cannot afford to send their 
children there.
    Senator Kaine. Right. Thank you. Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Kaine.
    Senator Baldwin, any other comments?
    Senator Baldwin. I have another question and if we can----
    The Chairman. Sure.
    Senator Baldwin. I appreciate, Mr. Chairman. I am a strong 
supporter of three campus-based programs in our Federal 
financial aid system, including the Perkins Loan Program, which 
has been allowed to lapse. I continue to hear from institutions 
in my state of Wisconsin about the value of Perkins loans in 
targeting small amounts of aids to students in need, including 
Pell recipients. These students faced a shortfall that meant 
the difference between staying enrolled and dropping out. 
Unfortunately, there is simply nothing in the Federal financial 
aid tool box that fills the same and critical role. While we 
can and should look at ways to improve and better target aid 
through Perkins and other campus-based programs, I believe 
these unique programs should continue to be a part of a robust 
Federal financial aid system.
    I wonder, I would love to hear from you Mr. Meotti and 
other witnesses, about the role that the Perkins Loan Program 
played in helping particularly needy students meet the true 
costs of college.
    Mr. Meotti. I do think Senator you are speaking to a very 
important point of the campus-based aid programs, as they are 
called, have sort of not gotten the attention that I think they 
should. They allow institutions to have a fair amount of 
flexibility in how they meet the challenges on the ground that 
they face. I think I would also include in that, the work-study 
program. You know, we actually have a state work-study program 
that supplements the Federal program and we are trying to do 
much more creative work with that around aligning to not only 
student pathways but workforce needs, targeting lower income 
eligible populations. And it gives you the flexibility to do 
things, and things like Perkins and work-study and others, that 
is harder to do in a large-scale grant program that would be 
Pell or state need grant.
    Senator Baldwin. Any other comments?
    [No response.]
    Senator Baldwin. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Baldwin.
    Senator Casey.
    Senator Casey. Thanks very much, and thanks for the panel. 
We are grateful for your testimony today. I am sorry I was not 
here for the duration of the testimony. We are doing a little 
hearing juggling today, so we are catching up, but I wanted to 
focus on this issue of complication and the issue of students 
not getting the aid that they would be entitled to because of 
some of the impediments.
    We heard testimony that 45 percent of low-income students 
complete the FAFSA, missing out on something like $24 billion 
in grants, and loans, and institutional aid each year. There 
was also testimony about 50 percent of Pell eligible students 
being flagged for verification, and that of those students 
flagged for verification, an estimated 25 percent of students 
abandon the financial aid process. We all want to ensure that 
students get the need assistance and we also want to make sure 
that forms are less complicated. We have got to do it the right 
way and that is why I am particularly concerned that students 
who do not apply or drop out of verification, concerned about 
that in particular.
    I guess the question I have is directed at Ms. Scott about 
recommendations. Some of these I am sure you covered in one way 
or another, but I wanted to reiterate them. Recommendations for 
how we can better educate, counsel, and assist students, 
particularly low-income students and first-generation students 
as they apply for financial aid.
    Ms. Scott. Simplification has a powerful impact, and as I 
mentioned, Promise programs are really known for having that 
clear message that has positive impacts not just on the college 
access piece but also in the college success piece because we 
do not want to see students just to start college, we need them 
to finish their post-secondary program.
    Another issue around simplification is only filing the form 
once. As Dr. Scott Taylor mentioned, students' aid status does 
not very that much from year to year. We create a tremendous 
bureaucracy in having students renew their FAFSA every year, 
and it would be a great relief to students and families if they 
filed their FAFSA once when they started in an institution, and 
then had the same award throughout their career at that 
institution. I could see a situation if you started at a two-
year college, Lawson State Community College in Birmingham, and 
then you are going to transfer to UAB or Auburn or Alabama, 
that you would fill it out again. But as long as a student is 
at the same institution, tuition does not change that much. The 
family's financial situation does not change that much, but if 
they had a guarantee, that would be very helpful.
    Senator Casey. Anyone else have recommendations?
    Dr. Scott Taylor. I would say in terms of advising and 
counseling students and families, one thing that we try to do 
is, because we know there is a disproportionate amount of 
students from low-income backgrounds being pulled for 
verification, we try to pull the information together even 
before they get the flag. So, if we know that a student is at 
risk for homelessness or is homeless or is a foster youth, we 
try to get the appropriate legal documents because we have been 
through this for a while now that we know what they are, that 
we try to help students sooner prepare those materials so that 
when the flag comes, they can more quickly get it to their 
college institutions.
    We also try to work with, or we do work with institutions 
to ensure that the same documents we use for one college could 
be used at our partner institutions or colleagues at other 
colleges and universities. So, working a little bit in advance 
and pulling the verification materials together beforehand 
seems to have an impact on reducing the number of students who 
melt during verification because nine times out of ten, or what 
the percentage is, we know it is coming.
    Senator Casey. Thanks, Doctor. The last question I have in 
the time I have is for Ms. Scott again. I wanted to get back to 
this question of simplification even when it is streamlined and 
even when you have got reforms that lead to that, what are 
the--if you could walk through again, what are some of the 
limitations of FAFSA simplification?
    Ms. Scott. It is a form you have to fill out. That is very 
intimidating for low-income families, and not just reducing the 
number of questions. So, reducing the number of questions from 
more than 100 to 15 to 25 can have a huge impact. In addition 
to that, means testing and IRS data sharing so that the 
Government talks to each other, it works more efficiently, and 
there is fewer prospects for errors, could all be very helpful 
in making this process work for students, families, and our 
workforce system.
    Senator Casey. Thank you, Mr. Chairman.
    The Chairman. Senator Kaine, do you have any other comment? 
You know, I am thinking listening to this, I think each of us 
probably has several hundred thousand families in each of our 
states who would say to us, if the entire educational 
community, counselors, and others have been telling you for 
five years that you can simplify the FAFSA form and by doing so 
make it easier for low-income students to have the kind of 
college experience that the Pell Grant was set up to create, 
then why don't you do it? I think that would be what most of 
them would say to us and if any of the students who go through 
this verification process--which is fundamentally seeing if the 
Government can catch you giving one set of financial 
information to the Education Department and another set of 
answers to the same questions to the IRS, which is easy to make 
a mistake on. You might leave an initial off. You might leave a 
number wrong. And that is what Senator Casey was talking about, 
the large number of low-income students that targets. Well, the 
legislation Senator Murray and I introduced in the Senate 
passed, eliminated most of that by eliminating most of the so 
called verification because you do not have to compare those 
two things. They give it back.
    Then the expected family contribution. That is a mystifying 
thing even for a college graduate, and if we can demystify that 
and go to a table or set of simple calculations, all of those 
things are things that we should be capable of doing this year. 
I think it is probably a good idea that we took some time to 
think this through. At first it seemed tantalizing we might be 
able to do it down to two questions, but the more we got into 
it, that was not really practical because that would just force 
Washington, and Alabama, and the various states to then come up 
with their own sets of questions for their state aid and their 
institutional aid. So, I think we have benefited from listening 
to the entire community, but we have pretty well got this done.
    Senator Murray and I are doing our best over the next few 
months working with Members on the Title VI legislation. 
Senator Baldwin has a short-term Pell suggestion. Senator Kaine 
has--we have got a number of good ideas. We have got a number 
of good ideas on repaying student loans. The archaic nine 
different ways to repay it, many Senators left and right, 
Republican and Democrat, say let's get that down to two 
different ways to do it, and we will make one of them income-
based in some form. There is broad agreement on that.
    We are going to see what we can agree on and hopefully we 
can agree on a lot. That is what we try to do in 
reauthorization of higher education, but if we cannot agree on 
this much but can only agree on this much, I hope we go ahead 
and do it. And I hope one of those things is the simplification 
of the FASFA and the Murray-Alexander legislation that deals 
with saying to our constituents, you do not have to give the 
Federal Government information twice. You can give it to us 
once and we are smart enough to figure out what to do with it 
once we have it.
    Thanks to the witnesses. I would encourage each of you if 
something has come up that you would like us to consider, that 
you did not get to say, we welcome your written statement or 
follow-up letter. We thank you for your time and preparation, 
and for coming here.
    The business record will remain open for 10 business days. 
Members may submit additional information and questions to our 
witnesses for the record within that time if they would like.
    The Chairman. I would like to thank Senator Baldwin for 
being Ranking Member today and for her contributions to our 
higher education reauthorization effort and to the Committee. 
The next hearing will be implementing the 21st Century Cures 
Act, making electronic health information available to patients 
and providers on Tuesday, March 26.
    Thank you for being here.
    The Committee will stand adjourned.
                                ------                                

              addendum to the testimony of kristina scott
    Thank you, Chairman Alexander, Ranking Member Murray, and Members 
of the Committee for the opportunity to submit this addendum to my 
testimony regarding reauthorization of the Higher Education Act 
presented to the U.S. Senate Committee on Health, Education, Labor and 
Pensions on March 12, 2019.

    I seek to elaborate on two issues. First, I want to emphasize the 
importance of supporting Historical Black Colleges and Universities 
(HBCUs) in order to reduce the disproportionate debt burden for student 
borrowers of color. Second, I would like to submit Alabama's definition 
of quality postsecondary credentials for your consideration as you 
consider authorizing Pell Grants funding for short-term credentials.

    Title III Funding, HBCUs, and College Affordability

    HBCUs play an essential role in boosting access and success for 
African American students. In fact, even though HBCUs represent just 3 
percent of two-year and four-year public and private nonprofit 
institutions eligible for Federal dollars, they award 17 percent of all 
bachelor's degrees earned by African American students. \1\ 
Furthermore, HBCUs have conferred 24 percent of the bachelor's degrees 
earned by black students in science, technology, engineering, and 
mathematics fields since the early 2000's. \2\ Thus, HBCUs' track 
record with regards to postsecondary attainment warrants the allocation 
of an increased amount of taxpayer dollars.
---------------------------------------------------------------------------
    \1\  Williams, K. and Davis, B. (2019). Public and Private 
Investments and Divestments in Historically Black Colleges and 
Universities. American Council on Education and United Negro College 
Fund. https://www.acenet.edu/news-room/Documents/public-and-private-
investments-and-divestments-in-hbcus.pdf.
    \2\  Preston, DeShawn C. (2017). Historically Black Colleges and 
Universities (HBCUs) Serving as a Community Cultural Wealth for African 
Americans Who Enroll in STEM Doctoral Programs. Clemson University. 
https://tigerprints.clemson.edu/all_dissertations/1931.

    A critical means of supporting this extraordinary attainment at 
HBCUs is the Empowering HBCU Grant Program in Title III-B, Section 323 
of the Higher Education Act (HEA). These formula-based grant dollars 
are authorized for--among other things--academic resources and 
endowment capacity building, and the formula is weighted heavily toward 
how well the institution enrolls and serves Pell students.
    As noted below, this program faced decreases in appropriations from 
fiscal year 2012 to fiscal year 2013, fiscal year 2013 to fiscal year 
2014, fiscal year 2014 to fiscal year 2015, and fiscal year 2016 to 
fiscal year 2017. Furthermore, the mandatory spending for this program 
in Title III-F, Section 371 of HEA expired in fiscal year 2019 (FY19). 
\3\ Thus, a significant source of funding for a demonstrably successful 
program is set to disappear if Congress does not act before the 2020 
appropriations have concluded. The figure below depicts the 
appropriations negotiations outcomes for this program from fiscal year 
2011 through the most recent omnibus.
---------------------------------------------------------------------------
    \3\  United States Department of Education Budget Tables. https://
www2.ed.gov/about/overview/budget/tables.html.

Strengthening HBCU Grant Program Appropriations, fiscal year 2011-2019 
                           (in millions) \4\
---------------------------------------------------------------------------
    \4\  Ibid.


------------------------------------------------------------------------
                                                               Mandatory
 Fiscal     Discretionary      Mandatory          Total        Approps.
  Year     Appropriations    ppropriations    Appropriations    as % of
                                                                 Total
------------------------------------------------------------------------
2019      $282,420          79,730           362,150          22
------------------------------------------------------------------------
2018      279,624           79,390           359,014          22
------------------------------------------------------------------------
2017      244,694           79,135           323,829          24
------------------------------------------------------------------------
2016      244,694           79,220           323,914          25
------------------------------------------------------------------------
2015      227,524           78,795           306,319          26
------------------------------------------------------------------------
2014      223,783           78,880           302,663          26
------------------------------------------------------------------------
2013      216,056           80,665           296,721          27
------------------------------------------------------------------------
2012      227,980           85,000           312,980          27
------------------------------------------------------------------------
2011      236,991           85,000           321,991          26
------------------------------------------------------------------------


    Absent a significant increase in discretionary spending in fiscal 
year 2020 or an agreement reached outside appropriations negotiations, 
the very foundation of this soon-to-be expired program will fracture. A 
drastic decrease in funding for this program will inevitably force 
HBCUs to turn to alternative revenue streams, potentially leaving 
students with a higher bill for tuition and fees than anticipated. 
Raising tuition and fees would be especially problematic for HBCU 
students, who already borrow nearly twice as much as their peers 
enrolled at non-HBCU institutions. \5\ To avoid that unacceptable 
outcome, we ask that, once reauthorized, mandatory appropriations for 
this program should be indexed to inflation to ensure at least moderate 
year-over-year increases, unlike the cuts resulting from the majority 
of the last eight budget cycles.
---------------------------------------------------------------------------
    \5\  Saunders, K.M., Williams, K.L., & Smith, C. L. (2016). Fewer 
Resources More Debt: Loan Debt Burdens Students at Historically Black 
Colleges & Universities. United Negro College Fund Frederick D. 
Patterson Research Institute. http://images.uncf.org/production/
reports/FINAL_HBCU_Loan_Debt_Burden_Report.pdf.

    It is essential that the investments made in this program reflect 
the outstanding nature of the outcomes to which it has contributed. 
Thus, we urge you and your colleagues to earnestly prioritize this 
truly pressing need during the forthcoming HEA and appropriations 
---------------------------------------------------------------------------
negotiations.

    The JOBS Act, Short-Term Pell Grants, and Quality Postsecondary 
Credentials

    Currently, low-income students can use Pell grants to pay for 
bachelor's degrees, associate degrees, and certificate programs that 
last more than 600 clock hours or at least 15 weeks. The Jumpstart Our 
Businesses by Supporting Students (JOBS) Act would close the skills gap 
in the labor market by expanding Pell Grant eligibility to cover high-
quality and rigorous short-term certificate programs so workers can 
afford high-demand credentials.

    However, the JOBS Act does not clearly define what constitutes 
``high-quality and rigorous'' short-term certificate programs. As a 
result, this legislation puts at risk both Federal investments in Pell 
Grant dollars and student investments in time, money, and deferred 
earnings.

    The Alabama Workforce Council and its statewide Educational 
Attainment Committee reflected on how to ensure better outcomes for 
individuals, business and industry, and the overall economy as it wrote 
its Success Plus strategic plan to add 500,000 highly skilled 
individuals to the state's workforce by 2025. Success Plus relies on 
the following indicia of quality credentials:

        <bullet>  Valuable--Leads to increased wages that are at least 
        20 percent higher than those earned by an individual with a 
        high school diploma alone; provides for career advancement and 
        increased job security.
        <bullet>  Portable--Transferable to multiple employers and 
        provides broad workforce opportunities; recognized as skills 
        necessary to be successful in the state's economy.
        <bullet>  Stackable--Provides a base for additional, 
        continuous, or advanced training and/or education that can 
        expand expertise and create additional wage value.
        <bullet>  Trackable--Can be quantifiably tracked by the state 
        to ensure that awarded certificates align with industry needs 
        and provide continued value to the bearer.
        <bullet>  Skills-Based--Awarded by professional groups, 
        industry, vendors, and government agencies to individuals 
        demonstrating measurable technical or occupational skills.
        <bullet>  In Demand--Responds to a demonstrated need by 
        employers in Alabama to meet current and future workforce needs 
        of the state's evolving economy. \6\
---------------------------------------------------------------------------
    \6\  Alabama Workforce Council Statewide Attainment Committee 
(2018). Preparing Alabama's Workforce for Opportunity & Growth. http://
www.madeinalabama.com/assets/2018/05/Success-Plus.pdf.

    Including a robust definition of ``high-quality and rigorous'' 
short-term certificates in the JOBS Act would enhance outcomes and 
---------------------------------------------------------------------------
return on investment for education and workforce stakeholders.

    You have a significant opportunity to make postsecondary education 
more accessible and affordable for today's students and families. Thank 
you for considering practitioners' perspectives.
                                 ______
                                 

          WASHINGTON STATE COLLEGE BOUND SIGN UP FORM EXAMPLE
          

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                ------                                


                         QUESTIONS AND ANSWERS

   Response by Kristina Scott to Questions From Senator Warren, and 
                             Senator Rosen

                        SENATOR ELIZABETH WARREN

    Question 1. Almost half of today's students are financially 
independent, but Congress built the Federal financial aid 
system as if these students are the exception. How should 
lawmakers consider financially independent students when 
revising or simplifying the FAFSA?

    Answer 1. Our recommendations to streamline the FAFSA, 
focus the process on funds available to pay for postsecondary 
education, and decrease the verification burden apply to both 
dependent and independent students.

    In addition, as I discussed in my written testimony, 
allowing financially independent students under the age of 24 
to file as ``provisionally independent'' would make it easier 
for them to stay in or return to school.

    For financially independent adults, enrolling in 
postsecondary education is frequently proceeded by a change in 
income and/or employment status. Congress could consider the 
needs of financially independent students over the age of 24 by 
permitting them to submit both prior-prior year and prior year 
tax information. Congress could also work with the Department 
of Education to provide clear, actionable guidance to financial 
aid administrators regarding the use of professional judgment 
to take into account more recent changes in economic 
circumstances that might not be reflected on tax returns.

    Question 2. Of the 1.8 million low-income high school 
seniors, 968,000 will submit a FAFSA, and 50 percent of them 
will be selected for income verification. In the 2015-2016 
academic year, nationally, failure to complete the verification 
process kept one in five Pell-eligible students from receiving 
the Pell Grant. In your experience, has income verification 
prevented low-income students from attending college or 
increased college costs? How should lawmakers address this 
problem?

    Answer 2. We provide direct services to Birmingham City 
Schools students, and 60 percent of the Birmingham City Schools 
Class of 2018 filed their FAFSA. A shocking 59.2 percent of the 
Birmingham City Schools Class of 2018 who filed a FAFSA were 
selected for verification. \1\ Early analysis of our internal 
data indicates that only 38 percent of Birmingham City Schools 
Class of 2018 enrolled in college immediately after high 
school. The numbers alone tell a story of melt.
---------------------------------------------------------------------------
    \1\  FAFSA Completion. Alabama Commission on Higher Education. 
fafsa.ache.edu.

    This data comes to life during the summer months, when we 
work with students to navigate the college enrollment process. 
More than half the students we see have been selected for 
verification and need extra assistance to meet the requirements 
---------------------------------------------------------------------------
of their college's financial aid office.

    As I discussed in my written testimony, increasing data-
sharing among Federal agencies, particularly the Internal 
Revenue Service, would help repair the leaky FAFSA pipeline. 
\2\
---------------------------------------------------------------------------
    \2\  The Leaky FAFSA Pipeline (2017). National College Access 
Network. collegeaccess.org/images/documents/leakyFAFSApipeline.jpg.

    I would also be interested to hear financial aid 
administrators' perspectives on how to change the verification 
---------------------------------------------------------------------------
process to serve students and families better.

    Question 3. If Congress were to lower the required 
threshold of those selected for income verification (currently 
at 30 percent) would you expect this reduction to address the 
income verification issue?

    Answer 3. Lowering the required threshold of those selected 
for income verification would be preferable to the current 
threshold. However, we question whether it would be enough to 
solve the verification barrier for the roughly half of all 
Pell-eligible filers who are flagged for verification. \3\ We 
would prefer to see increased data-sharing among Federal 
agencies so that students and their families are not required 
to enter and re-enter confusing financial information.
---------------------------------------------------------------------------
    \3\  Warick, C. (2018) FAFSA Verification: Good Government or Red 
Tape? National College Access Network. collegeaccess.org/images/
documents/Verification_White_Paper_2018.pdf.

    Question 4. Does income verification have an impact on the 
---------------------------------------------------------------------------
student loan debt load of students?

    Answer 4. In our experience, students who are selected for 
verification, cannot timely resolve their verification status, 
and actually enroll in college turn to private loans and/or 
credit cards to close the gap between college expenses and 
available financial aid. That in turn adds to their overall 
debt load.

    Question 5. Currently, the Expected Family Contribution 
(EFC) may disadvantage today's students who have dependents 
(including small children) or existing debt. Do you think the 
current EFC formula rightly accounts for all of the costs that 
today's students--especially those who are parents--face when 
they are trying to afford college?

    Answer 5. Our work is primarily with very low-income high 
school students and returning adults who qualify for a full or 
nearly fully Pell Grant. We would not be in favor of adding 
questions to the FASFA regarding dependents and/or existing 
debt for these FAFSA filers. The families we serve would 
benefit the most from an expedited process which awarded Pell 
Grants to families who already receive means-tested Federal 
benefits, such as the Supplemental Nutrition Assistance Program 
and from a simplified FAFSA form.

                          SENATOR JACKY ROSEN

    Question 1. Starting with the FAFSA for the 2015-2016 
academic year, foster youth and former foster youth were able 
to check a box identifying their background information when 
they filled out their financial aid forms. The purpose of this 
change was to simplify the process and help identify resources 
available for youth who had spent time in the foster care 
system, in order to increase the number who were both applying 
to and attending college.

        a. To all of the witnesses, can any of you provide the 
        Committee with data on how many foster youth or former 
        foster youth apply to college each year in your state 
        and how this compares with youth who have not spent 
        time in foster care.

        b. What specific recommendations do you have to 
        increase the number of foster youth applying to 
        college? What specific barriers do you see and what 
        recommendations do you have for this Committee? I would 
        also be very interested in hearing what steps you are 
        each doing to reach foster youth and other vulnerable 
        populations to improve the current rates of application 
        and graduation.

    Answer 1. Currently, 20,000-25,000 foster youth age out of 
the foster care system each year. According to the most recent 
studies, 20 percent of foster youth enroll in higher education 
(so if the numbers stayed consistent to today, that would be 
roughly 4,000-5,000 foster youth per year); about 60 percent of 
other students enroll in higher education. Another study said 
that if foster youth graduated high school and attended 
institutions of higher education at the same rate as their 
peers, there would be an additional 100,000 former foster youth 
from the ages of 18-25 attending institutions of higher 
education. Overall, 2-9 percent of former foster youth obtain a 
bachelor's degree. \4\ The number of foster youth in the 
country also continues to rise. \5\
---------------------------------------------------------------------------
    \4\  Fostering Success in Education: National Factsheet on the 
Educational Outcomes of Children in Foster Care. (2014) National 
Working Group on Foster Care and Education. cdn.fc2success.org/wp-
content/uploads/2012/05/National-Fact-Sheet-on-the-Educational-
Outcomes-of-Children-in-Foster-Care-Jan-2014.pdf.
    \5\  The AFCARS Report. (2017) U.S. Department of Health and Human 
Services, Administration for Children and Families, Administration on 
Children, Youth and Families, Children's Bureau. https://
www.acf.hhs.gov/sites/default/files/cb/afcarsreport24.pdf.

    In Alabama in recent years, 62-65 percent of graduating 
high school years enroll in postsecondary education during the 
year immediately after they graduate from high school. \6\ 
Alabama does not publish data on overall college-going rates 
for foster youth or former foster youth, and Alabama Possible 
does not specifically target its services and outreach to 
foster youth or former foster youth.
---------------------------------------------------------------------------
    \6\  Spencer, T. (2019) College-Going Rates for Alabama High 
Schools. Public Affairs Research Council of Alabama. http://
parcalabama.org/college-going-rates-for-alabama-high-schools-2/.

    Students who are in the foster care system when they earn a 
high school diploma or GED and those adopted from Alabama 
foster care after age 14 are eligible for Alabama's Fostering 
Hope Scholarship, which covers tuition and fees for 
postsecondary certificate or degree programs at 2-or 4-year 
public colleges in Alabama. Students who register for the 
scholarship are also teamed with a mentor to assist with 
postsecondary planning. According to the Alabama Department of 
Human Resources, there are approximately 6,000 foster youth of 
all ages in the State of Alabama, 163 students are 
participating in the Fostering Hope Scholarship program during 
the Spring 2019 semester, and a total of 303 students have 
participated since the program's launch during the 2016-2017 
---------------------------------------------------------------------------
school year.

    California, New York, Pennsylvania, and Michigan have 
passed legislation to assist foster youth with transitioning to 
postsecondary education.
                                ------                                


   Response by Mark Wiederspan to Questions From Senator Warren, and 
                             Senator Rosen

                        SENATOR ELIZABETH WARREN

    Question 1. Almost half of today's students are financially 
independent, but Congress built the Federal financial aid 
system as if these students are the exception. How should 
lawmakers consider financially independent students when 
revising or simplifying the FAFSA?

    Answer 1. Previous research, such as my own, has 
demonstrated that most of the financial information collected 
on the FAFSA does little to determine aid eligibility. In fact, 
EFC and financial aid eligibility can be approximated with a 
high level of precision with only a handful of elements: 
adjusted gross income, taxes paid, state of residence, family 
size, marital status, type of income tax form filed, and the 
number of family members in college. All of this information 
could accurately estimate aid eligibility regardless of 
dependency status. That said, there would be no need for 
specialized questions tailored to independent students.

    Question 2. Of the 1.8 million low-income high school 
seniors, 968,000 will submit a FAFSA, and 50 percent of them 
will be selected for income verification. In the 2015-2016 
academic year, nationally, failure to complete the verification 
process kept one in five Pell-eligible students from receiving 
the Pell Grant. In your experience, has income verification 
prevented low-income students from attending college or 
increased college costs? How should lawmakers address this 
problem?

    Answer 2. My research provides evidence that income 
verification does prevent low-income students from attending 
college. Due to Iowa College Aid's management of state aid 
programs, our agency receives Institutional Student Information 
Records (ISIR) for all Iowans who file the Free Application for 
Federal Student Aid (FAFSA). For my analysis, I used ISIR 
records for first-time FAFSA filers from the 2012-13 to 2016-17 
academic years. This dataset not only includes detailed 
measures that are used to calculate filers' EFC, but also 
variables identifying which filers were selected for 
verification. This data was then matched to the student-level 
data base maintained by the National Student Clearinghouse 
(NSC), which allows for identification on filers' postsecondary 
enrollment.

    Through a series of logistic regressions, I estimated the 
predicted probability of college enrollment between Pell-
eligible filers selected for verification and Pell-eligible 
filers not selected for verification. Figure 1 below displays 
the results for these two groups. Above each predicted 
probability is the average marginal effect, which provides the 
statistical difference in college enrollment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Pell-eligible filers who were selected for verification 
were roughly 2.3 percentage points less likely to enroll in 
college than their counterparts who were not selected for 
verification. The enrollment difference, however, changes when 
examining across institutional sectors. Verification had the 
biggest impact for Pell-eligible students who were intending to 
attend a community college (public 2-year)--filers selected for 
verification were significantly less likely to enroll by 3 
percentage points.

    The exact reason selected filers do not enroll is unknown--
the aforementioned analysis examines only the association 
between verification selection and college enrollment. However, 
enrollment decisions could be based on financial aid receipt. 
Filers need to complete the verification process before 
financial aid can be disbursed. If students do not have the 
tools to complete the verification process, they will not be 
able to receive financial aid. Thus, college prices will be 
higher for those who do not complete the verification process, 
and the inability to pay those prices could deter lower-income 
students from attending college.

    My written testimony has recommendations for how the 
Committee can address this problem. But I would specifically 
recommend that lawmakers (a) utilize the IRS Data Retrieval 
Tool (DRT) not only to make the FAFSA more simple but also to 
reduce the need for verification, and (b) make the selection 
for verification more transparent by providing filers with more 
information on why they were selected for verification and 
making the criteria or formula determining selection known.

    Question 3. If Congress were to lower the required 
threshold of those selected for income verification (currently 
at 30 percent) would you expect this reduction to address the 
income verification issue?
    Answer 3. While it is true that roughly 30 percent of 
filers are selected for verification annually, institutions 
that have a large share of Pell-eligible students carry a 
heavier load in the verification process. Starting in 2012-13, 
postsecondary institutions were no longer required to verify 30 
percent of their FAFSA filers. Rather, institutions are now 
required to complete the verification process for every 
selected filer. This means that distribution of selected 
students varies across institutions. Because verification is 
highly associated with Pell eligibility, institutions with a 
high share of Pell-eligible students carry a heavier 
verification burden than institutions with a small share. 
Because community colleges have a large share of Pell-eligible 
students, this sector often has more filers to verify. Using 
Iowa FAFSA filers during 2017-18 as an example, 47 percent of 
filers intending to attend a community college were selected 
for verification, compared to 17 percent at 4-year public and 
25 percent at private non-profit colleges.

    I would expect that any alleviation in the 30 percent that 
are selected for verification annually would help improve 
college enrollment rates, especially at postsecondary 
institutions that have a large Pell-eligible population.

    Question 4. Does income verification have an impact on the 
student loan debt load of students?

    I am not aware of any research or evidence that 
demonstrates a direct impact of verification on student loan 
debt. However, should filers not complete the verification 
process, they would be ineligible to receive Federal Stafford 
loans. In this instance, filers could potentially use non-
Federal loans, which may have higher interest rates.

    Question 5. Currently, the Expected Family Contribution 
(EFC) may disadvantage today's students who have dependents 
(including small children) or existing debt. Do you think the 
current EFC formula rightly accounts for all of the costs that 
today's students--especially those who are parents--face when 
they are trying to afford college?

    By design of the current EFC calculation formula, 
independent students who have dependents should have a smaller 
EFC than similar students who do not have dependents. 
Independent students with dependents are eligible to have their 
EFC calculated through the simplified needs test and are 
eligible for an automatic zero EFC, whereas independent 
students without dependents are not.

    Within the EFC formula, there is a financial offset that 
accounts for the basic costs of maintaining family members in 
the home while in college. This allowance is based on cost of 
living estimates from the Bureau of Labor Statistics. 
Independent students with dependents have a higher income 
protection allowance than dependent students and independent 
students without dependents. If there were a change in the EFC 
to rightly account for the costs, it could be reflected in a 
change to this income protection allowance. However, I am not 
able to make a judgment on whether this current offset amount 
accurately reflects costs that students are facing today. 
Instead, I think that more inspection could be done on 
colleges' cost of attendance measures. Previous research has 
demonstrated that these cost of attendance measures may not 
necessarily reflect the true costs of attending a postsecondary 
institution, as some researchers have argued that the estimated 
costs are smaller than the true costs.

                          SENATOR JACKY ROSEN

    Question 1. Starting with the FAFSA for the 2015-2016 
academic year, foster youth and former foster youth were able 
to check a box identifying their background information when 
they filled out their financial aid forms. The purpose of this 
change was to simplify the process and help identify resources 
available for youth who had spent time in the foster care 
system, in order to increase the number who were both applying 
to and attending college.

        a. To all of the witnesses, can any of you provide the 
        committee with data on how many foster youth or former 
        foster youth apply to college each year in your state 
        and how this compares with youth who have not spent 
        time in foster care?

        b. What specific recommendations do you have to 
        increase the number of foster youth applying to 
        college? What specific barriers do you see and what 
        recommendations do you have for this Committee? I would 
        also be very interested in hearing what steps you are 
        each doing to reach foster youth and other vulnerable 
        populations to improve the current rates of application 
        and graduation.

    Answer 1. Unfortunately I do not have data on the college 
enrollment rates for all foster youth in the state of Iowa. My 
analysis is limited to Iowans who file the FAFSA. Internal 
agency data does suggest that, on an annually basis, roughly 1 
percent of Iowa FAFSA filers are orphans or wards of the state 
in foster care. That equates to approximately 1,100 to 1,700 
foster students filing the FAFSA annually. Among that 1 
percent, roughly 51 percent enroll in college. In comparison to 
youth not in foster care and who file the FAFSA, the enrollment 
rate is closer to 75 percent.

    As the agency in charge of administering the state of 
Iowa's grants and scholarship programs, we do oversee Iowa's 
Education Training Voucher (ETV), a federally funded aid 
program through the John H. Chafee Foster Care Independent 
Program. In recent years, there have been changes to the aid 
program that have allowed for a larger share of foster students 
to be ETV eligible. Specifically, the age restriction changed 
from 23 to 26 years of age. However, there is still a 5 year 
maximum lifetime eligibility for this aid program. We have 
discovered that many foster students enroll part-time, which 
can lead to these foster students extending their time to 
degree beyond 5 years. One possible recommendation for the 
Committee would be to modify this 5 year limit to a 5 full-time 
equivalent year limit. This small adjustment would not only 
take into account periods where foster students are enrolled 
part-time, but would also allow for an extension in their aid 
eligibility that could cover their time to degree.
                                ------                                


Response by Michele Scott Taylor to Questions From Senator Warren, and 
                             Senator Rosen

                        SENATOR ELIZABETH WARREN

    Question 1. Almost half of today's students are financially 
independent, but Congress built the Federal financial aid 
system as if these students are the exception. How should 
lawmakers consider financially independent students when 
revising or simplifying the FAFSA?

    Answer 1. College Now serves many students who lack any 
financial support from their parents, but due to Federal rules, 
are unable to qualify for independent status. This issue 
becomes especially pronounced when students are trying to 
complete the FAFSA. It is not uncommon for parents to withhold 
his or her tax information from their child. The reasons are 
varied, but often include lack of familiarity with the process 
and/or concerns with turning over personal information to 
school. This unfortunately can then prevent their child from 
being able to access postsecondary.

    Alex is a student from Cleveland who is currently enrolled 
at Baldwin Wallace. She summed up her experience as a dependent 
student:

    ``My parents do not provide any financial support in my 
life whatsoever, and that's how it has been since I was 16. The 
government does not take into consideration that there are 
different circumstances in every person's life which can limit 
their ability to afford college. My parents didn't give me the 
luxury of helping me pay for school or surprising me with a 
bank account with thousands of dollars when I turned 18. But 
until I am 24, I am included on my parents' taxes, even if I 
live on my own--and the only way I can become eligible is if I 
have a child or get married.''

    Alex's suggestion was to simply ``provide an option on the 
FAFSA that allows you to check ``yes'' or ``no'' regarding 
parental financial support through college.'' While we 
recognize the process cannot be so simple, we do believe there 
should be an easier path to proving independence and revising 
the current formula that determines a family's EFC.

    Question 2. Of the 1.8 million low-income high school 
seniors, 968,000 will submit a FAFSA, and 50 percent of them 
will be selected for income verification. In the 2015-2016 
academic year, nationally, failure to complete the verification 
process kept one in five Pell-eligible students from receiving 
the Pell Grant. In your experience, has income verification 
prevented low-income students from attending college or 
increased college costs? How should lawmakers address this 
problem?

    Answer 2. Income verification ABSOLUTELY prevents low-
income students from attending college and it has increased 
college costs. It is alarming that while 30 percent of all 
FAFSA filers are selected for verification, 50 percent of Pell 
eligible students are selected. Of those who are Pell-eligible 
and selected for verification only 56 percent go on to receive 
a Pell Grant compared to 81 percent of Pell-eligible students 
not selected for verification. This represents a 25 percentage 
point ``melt'' (Warick, 2018). There is little evidence to show 
that the verification process actually has the desired results: 
reducing improper payments and ensuring accountability within 
the financial aid process. For example, Pell overpayment 
accounts for 95 percent of improper payments. However, 
according to the U.S. Department of Education, 63 percent of 
those overpayments are due to administrative or process errors 
while only 37 percent are due to failure to verify financial 
data (2017). Further, there is evidence that families with 
higher incomes (over $75,000), if selected for verification, 
would be are more likely to receive a major change in their 
financial aid package than those with zero EFC's (46 percent vs 
7 percent, respectively) (Warick, 2017). It is clear that the 
verification process unfairly targets those who are low-income.

    At College Now, we work with 29,000 students annually 
throughout financial aid process including financial aid 
education, FAFSA completion assistance, verification support, 
and loan repayment. We know from this direct service, that 
verification is a major barrier to college enrollment for low-
income and first-generation students and work diligently to 
help students selected for verification complete the 
complicated process. However, there are times when these 
efforts fail to prevent students from melting.

    Verification can also contribute to a student delaying or 
even losing his or her award, as the U.S. Department of 
Education cannot disperse any Federal funds until the student 
completes the process. The verification process can take 
several months and force students to find alternative means of 
funding to pay for academic or housing deposits, as they wait 
for the funds to be awarded.

    John was planning on attending Cleveland State University. 
He is the first in his family to attend college and therefore 
relied heavily on College Now advice and support. Neither of 
his parents work, although they are married. Together, his 
family and the College Now advisor completed the necessary 
paperwork and requested a copy of proof for non-filing--the 
4506 form for his mother. We mailed several copies of this form 
before we eventually heard back.

    Sadly, John started college in the Fall without his 
financial aid being squared away. He was dropped from his 
classes and required to re-register and he started the classes 
without having the money to purchase his textbooks. After he 
dropped the first semester classes he works at various fast-
food jobs and works at the Indians Stadium when they are in-
season and at first he talked about transferring to Tri-C, but 
now he just wants to work.

    To address the challenges of verification, and ensure that 
future students like John are able to enroll without these 
additional hurdles, we recommend that Congress:

        a. simplify the FAFSA to reduce the number of 
        thresholds for verification,

        b. use qualifying for means-tested benefits as evidence 
        of a student's financial situation (too often, we 
        require students and their families to prove over and 
        over that they are in fact poor. This can be 
        streamlined through stronger data sharing between 
        agencies and by giving FAFSA filers who receive means 
        tested benefits an auto zero EFC and exemption from 
        verification),

        c. amend IRS Code Section 6103 be amended to allow for 
        direct sharing between the Department of Treasury and 
        Education; and

        d. legislate the re-establishment of a verification 
        cap. Historically, institutes of higher education were 
        allowed to cap the number of students they verified at 
        30 percent. That cap was removed in 2012. While we'd 
        like to reinstate some sort of cap, we concur with the 
        National Association Financial Aid Administrators, that 
        a 30 percent verification rate is unnecessarily high to 
        ensure that the program is being implemented with 
        integrity. In contrast, the IRS verifies less than 1 
        percent of filers with adjusted gross incomes of $1 to 
        $500,000.

    Another major verification challenge is that once a student 
is selected for verification at one school, they are likely to 
be selected for verification at multiple schools. The processes 
are burdensome work for the student and their families.

        e. We recommend that the verification process be 
        standardized or that the Department create a one-stop 
        verification clearinghouse so that students only need 
        to complete the process once.

    In addition to these recommendations, we ask that Congress 
take further action to ensure that verification achieves the 
desired impact of reducing improper payments and that more be 
done to prevent the burden of verification from falling on the 
most vulnerable students.

    To that end, Congress should consider the following two 
questions as it considers HEA reauthorization. Is verification 
having the desired results? Further, could verification be 
structured in a way that targets fewer students and lowers the 
burden on both families and institutions of higher education?

    Question 3. If Congress were to lower the required 
threshold of those selected for income verification (currently 
at 30 percent) would you expect this reduction to address the 
income verification issue?

    We think that lowering the required threshold for income 
verification is one of many steps needed to reduce the impact 
of verification (see question 2). However, for this to be 
equitable and effective, it would need to be implemented in 
conjunction with the reinstatement of a verification cap at the 
institutional level. In 2012, the Department removed the 30 
percent verification cap for institutions of higher education. 
This in turn, raised the verification burden for schools that 
attract a high number of Pell eligible students, like our 
partners Cuyahoga Community College, and Cleveland State 
University. This has forced schools like these to redeploy 
resources from supporting success and completion to 
administrative tasks to meet the rising verification burden.

    Lowering the caps at the Departmental level and for 
institutions, would allow institutions of higher education, to 
refocus their energy on more appropriately meeting the needs of 
students, not administrative work.

    Question 4. Does income verification have an impact on the 
student loan debt load of students?

    Answer 4. Income verification can have a negative impact on 
the student loan debt loads of students. If a student is unable 
to complete the verification process, they are then unable to 
access Federal grants and scholarships and also state grants 
like the Ohio College Opportunity Grant and private 
scholarships like the College Now Scholarship. This in turn, 
could lead a student to take out private student loans at a 
higher rate than they would otherwise.

    Question 5. Currently, the Expected Family Contribution 
(EFC) may disadvantage today's students who have dependents 
(including small children) or existing debt. Do you think the 
current EFC formula rightly accounts for all of the costs that 
today's students--especially those who are parents--face when 
they are trying to afford college?

    Answer 5. Absolutely Not! While the rationale for using a 
formula to calculate the EFC is laudable--it standardizes the 
use of Federal financial aid and it is a more systematic 
approach to ensuring fairness and perhaps ``equality''--it is 
not equitable, and there is a huge difference between equality 
and equity. The ability to afford college is predicated on a 
number of variables that are not currently accounted for or 
believed to be necessary in helping students access higher 
education. Existing debt is the most significant one!

                          SENATOR JACKY ROSEN

    Question 1. Starting with the FAFSA for the 2015-2016 
academic year, foster youth and former foster youth were able 
to check a box identifying their background information when 
they filled out their financial aid forms. The purpose of this 
change was to simplify the process and help identify resources 
available for youth who had spent time in the foster care 
system, in order to increase the number who were both applying 
to and attending college.

        a. To all of the witnesses, can any of you provide the 
        Committee with data on how many foster youth or former 
        foster youth apply to college each year in your state 
        and how this compares with youth who have not spent 
        time in foster care?

    Answer 1a. We do not specifically disaggregate our data 
regarding foster youth and formerly foster youth seeking to 
gain access to higher education. However, overall, the rate of 
foster care placement is on the rise in Ohio. In 2018, 26,700 
children were placed in foster care at some point--an increase 
of 3,184--in just five years. \1\ In Cuyahoga County, where 
College Now is headquartered and most of our services are 
provided, there are 1,394 children in either a DCFS or a 
Network Foster Home. In Ohio, 978 children aged out of out-of-
home care in 2015. \2\ Sadly, Ohio has long ranked last in the 
Nation in state funding for Children Service agencies.
---------------------------------------------------------------------------
    \1\  https://www.dispatch.com/news/20190329/ohio-child-welfare-
system-in-crisis-advocates-say.
    \2\  https://www.cwla.org/wp-content/uploads/2018/04/Ohio.pdf.

    There is a clear need to make sure that these students are 
provided with access to postsecondary and the supports 
necessary to accomplish their goals. According to the 
nonprofit, Foster Care to Success, only 10 percent of formerly 
foster youth graduate from college. Unfortunately, there is 
little attention being brought at a state-wide level to this 
gap, and we were unfortunately, unable to determine the college 
application rates of these students compared to their peers in 
---------------------------------------------------------------------------
Ohio.

        Question 1b. What specific recommendations do you have 
        to increase the number of foster youth applying to 
        college?

    Answer 1b. To increase the number of foster youth applying 
to college, we recommend increasing Federal grant funding (i.e. 
a larger maximum Pell Grant) for foster youth, as college costs 
can be a major barrier to higher education. The average young 
adult relies on their families for emotional support and some 
financial assistance until they are 26 years old. Most foster 
youth do not have this support network.

    While we are grateful that Congress continues to increase 
Pell, its purchasing power has declined tremendously since its 
establishment. In 1980 the Pell Grant covered 68 percent of 
college costs. In comparison, in 2016-17 it covered only 25 
percent of costs. If Pell were to maintain its purchasing power 
from 40 years ago, the maximum grant would be $15,471; for the 
2018-19 school year maximum Pell was $6,095. Even with state 
need-based aid and private scholarships, many formerly foster 
youth will view postsecondary as out of reach.

    We also suggest that Congress simplify the FAFSA and 
resulting verification process which can serve as a major 
barrier to college access for these youth. Congress should use 
qualifying for means-tested benefits as evidence of a student's 
financial situation. Too often, we require students and their 
families to prove over and over that they are in fact poor or 
in a difficult situation. This can be further streamlined 
through stronger data sharing between agencies and by giving 
FAFSA filers who receive means tested benefits an auto zero EFC 
and exemption from verification. One College Now Advisors 
shared this story about how the verification process can become 
a major barrier to foster youth:

    Foster kids are even more challenging. While they usually 
have the documentation they need if they're verified--and I've 
seen way fewer kids all the way through verification for foster 
care--they're usually dealing with so many other things trying 
to keep their lives stable as they age out that school isn't 
super important and verification is usually enough to knock 
them off track. Most foster kids I've seen in the Resource 
Center spent the first few years after high school trying to 
get their lives stable and miss out on critical scholarship 
money.

    We also recommend that private scholarship providers take 
into the unique needs of these students. For example, college 
advocated for the needs of foster youth as part of Cleveland's 
Say Yes to Education Scholarship. There is a residency 
requirement for Say Yes scholars, and College Now advocated to 
eliminate this requirement for those who are in foster care or 
are homeless.

    Finally, we ask that our higher education partners provide 
more support for these students once enrolled. For example, 
Cleveland State University offers foster youth the Sullivan/
Deckard scholarship. The Sullivan/Deckard scholarship guides 
youth who age out of the foster care system through the college 
application process. Once enrolled, these scholars benefit from 
a comprehensive support system and scholarship that covers 
tuition, room and board, and on campus employment through 
Federal-Work Study. This is a unique scholarship program with 
support services that are not found on many campuses.

    Question 1c. What specific barriers do you see and what 
recommendations do you have for this Committee? I would also be 
very interested in hearing what steps you are each doing to 
reach foster youth and other vulnerable populations to improve 
the current rates of application and graduation.

    Answer 1c. College Now Greater Cleveland pays close 
attention to the needs of foster youth serving them in the 
schools and through our two Resource Centers which are open to 
the public. Our advisors work with these students ensure they 
have the support needed to complete college applications and 
the FAFSA as well as relevant scholarships. We also, when 
funding is available, work with area colleges to provide 
scholarships and or waivers so that these students can live on 
campus during the times when residence halls are closed for 
most students (spring break, summer break, etc.). In addition, 
we partner with local nonprofits who work with this population 
to educate them on the issues and needs of these students 
matriculating and persisting in college. This information helps 
the broader community advocate for services to support these 
students. This Committee could be helpful in developing 
opportunities for cross collaboration among healthcare, social 
service and educational providers who can work with students 
holistically and mitigate the need for students to navigate 
multiple systems essentially.

    In our direct service work, we utilize a case-management 
approach to ensure each student meets with a College Now 
Advisor at least once a month. We recognize that before the 
career and college readiness conversations can occur, these 
students often have other needs that must be met like food, 
health and secured housing. For this reason, our staff first 
provide referrals to these services. Once those basic needs are 
met, they will begin to have conversations with these students 
about their postsecondary plans and financial concerns.

    This Committee could be helpful in developing opportunities 
for cross collaboration among healthcare, social service and 
educational providers who can work with students holistically 
and mitigate the need for students to navigate multiple systems 
(essentially leveraging the resources to achieve greater 
sustainable impact).

    We believe that TRIO and GEAR UP provide best practices 
because they utilize cohort models and because they provide 
wrap around services including funding. We recommend continued 
and increased funding for these programs. We also recommend 
continue researched on best practices in higher education 
access and completion. We also recommend continued researched 
on best practices in higher education access and completion 
using data disaggregated by vulnerable populations so that the 
magnitude of this problem can be more easily demonstrated, 
understood and acted upon.

    [Whereupon, at 11:31 a.m., the hearing was adjourned.]

                                   
</pre></body></html>
